<html>
<title> - EXAMINING THE ADEQUACY AND ENFORCEMENT OF OUR NATION'S IMMIGRATION LAWS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





EXAMINING THE ADEQUACY AND ENFORCEMENT OF OUR NATION'S IMMIGRATION LAWS

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                       
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 3, 2015

                               __________

                            Serial No. 114-1

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov
      
      
                                     ______

                       U.S. GOVERNMENT PUBLISHING OFFICE 

93-080 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUUL LABRADOR, Idaho                HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
        
        
                            C O N T E N T S

                              ----------                              

                            FEBRUARY 3, 2015

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     3
The Honorable Trey Gowdy, a Representative in Congress from the 
  State of South Carolina, and Member, Committee on the Judiciary     7
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Member, Committee on the Judiciary     8

                               WITNESSES

The Honorable Paul Babeu, Sheriff of Pinal County, Florence, 
  Arizona
  Oral Testimony.................................................    34
  Prepared Statement.............................................    36
Jan C. Ting, Professor of Law, Temple University Beasley School 
  of Law
  Oral Testimony.................................................    41
  Prepared Statement.............................................    43
Jessica M. Vaughan, Director of Policy Studies, Center for 
  Immigration Studies
  Oral Testimony.................................................    58
  Prepared Statement.............................................    60
Marc R. Rosenblum, Deputy Director, U.S. Immigration Policy 
  Program, Migration Policy Institute
  Oral Testimony.................................................    67
  Prepared Statement.............................................    69

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................     6
Material submitted by the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................    11
Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................    17
Material submitted by the Honorable J. Randy Forbes, a 
  Representative in Congress from the State of Virginia, and 
  Member, Committee on the Judiciary.............................    96
Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................   105
Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................   108
Material submitted by the Honorable Hakeem Jeffries, a 
  Representative in Congress from the State of New York, and 
  Member, Committee on the Judiciary.............................   134
Material submitted by the Honorable David N. Cicilline, a 
  Representative in Congress from the State of Rhode Island, and 
  Member, Committee on the Judiciary.............................   141
Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................   152

                                APPENDIX
               Material Submitted for the Hearing Record

Question for the Record submitted to Jessica M. Vaughan, Director 
  of Policy Studies, Center for Immigration Studies..............   168
Response to Question for the Record from Jessica M. Vaughan, 
  Director of Policy Studies, Center for Immigration Studies.....   170

 
EXAMINING THE ADEQUACY AND ENFORCEMENT OF OUR NATION'S IMMIGRATION LAWS

                              ----------                              


                       TUESDAY, FEBRUARY 3, 2015

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 11:06 a.m., in room 
2141, Rayburn House Office Building, the Honorable Bob 
Goodlatte (Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Smith, Chabot, Issa, 
Forbes, King, Franks, Gohmert, Jordan, Poe, Marino, Gowdy, 
Labrador, Farenthold, Collins, DeSantis, Buck, Ratcliffe, 
Bishop, Conyers, Nadler, Jackson Lee, Cohen, Johnson, Deutch, 
Bass, Richmond, DelBene, Jeffries, and Cicilline.
    Staff Present: (Majority) Shelley Husband, Chief of Staff & 
General Counsel; Branden Ritchie, Deputy Chief of Staff & Chief 
Counsel; Allison Halataei, Parliamentarian and General Counsel; 
Dimple Shah, Counsel; George Fishman, Counsel; Kelsey 
Deterding, Clerk; (Minority) Perry Apelbaum, Minority Staff 
Director & Chief Counsel; and Tom Jawetz, Counsel.
    Mr. Goodlatte. Good morning. The Judiciary Committee will 
come to order.
    And, without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    We welcome everyone to this morning's hearing on examining 
the adequacy and enforcement of our Nation's immigration laws. 
And I will begin by recognizing myself for an opening 
statement.
    When President Obama announced unilateral changes to our 
immigration laws with a wave of his pen and cell phone on 
November 20, 2014, he indicated that he would allow millions of 
unlawful and criminal aliens to evade immigration enforcement. 
He did this with the issuance of new so-called priorities for 
the apprehension, detention, and removal of aliens.
    Under the Obama administration's new enforcement 
priorities, broad categories of unlawful and criminal aliens 
will be immune from the law. This means that these removable 
aliens will be able to remain in the United States without the 
consequence of deportation.
    To make matters worse, even the most dangerous criminals 
and national security threats can cease being a priority for 
removal if there are undefined, compelling, and exceptional 
factors.
    On the same date, President Obama effectively announced the 
end of Secure Communities. Despite the fact that the President 
claims he took action to prioritize immigration enforcement 
against criminal aliens, he is scrapping a tool that identifies 
criminal aliens booked in jails across the United States so 
that Federal law enforcement officials can prioritize their 
removal.
    Secure Communities, created in 2008, is a simple and highly 
successful program to identify criminal aliens once arrested 
and jailed. It protects Americans from those who are a danger 
to their communities.
    As the Department of Homeland Security has said on numerous 
occasions, Secure Communities simply uses an already existing 
Federal information-sharing partnership between ICE and the 
Federal Bureau of Investigation that helps to identify criminal 
aliens so that ICE can take enforcement action.
    As of August 2014, the Administration indicated that over 
375,000 aliens and 121,000 level-one convicted criminal aliens, 
who the Obama administration deems the worst of the worst, were 
removed as result of Secure Communities.
    Based on the Obama administration's new policies announced 
on November 20, 2014, we have learned that the average daily 
population of aliens in detention facilities has declined to 
approximately 27,000 beds. This has occurred despite the 
statutory mandate in current law that ICE maintain a 34,000 ADP 
in detention facilities.
    Many factors have contributed to this decline, including 
the collapse of issuance and compliance with ICE detainers 
because of ICE's own detainer policy issued on December 21, 
2014, ICE's failure to defend its detainer authority, ICE's 
immediate implementation of its new enforcement priorities on 
November 20, 2014, and the demise of the Secure Communities 
program on this same date.
    Detainers are notices issued by ICE and other DHS units 
that ask local, State, and Federal law enforcement agencies not 
to release suspected removable aliens held at their facilities 
in order to give ICE an opportunity to take them into its 
custody. Detainers, often called immigration holds, are a 
primary tool that ICE uses to apprehend the suspects it is 
seeking.
    Irresponsible policies have led to a drop in the number of 
detainers issued by ICE. And given that ICE refuses to defend 
its detainer authority, many jurisdictions refuse to cooperate 
with ICE on detainers out of fear of civil liability. The 
results are distressing. ICE developed a methodology to track 
the number of detainers not honored by local law enforcement 
jurisdictions.
    From January 1, 2014, to September 30, 2014, over 10,000 
detainers were not honored. Through September, the recidivism 
rate for these aliens was 25 percent in just a 9-month period. 
There were over 5,400 subsequent arrests and 9,300 criminal 
charges. The end result of these policies: The number of 
unlawful or criminal aliens that ICE has removed from the 
interior of the country has fallen by more than half since 
2008.
    Given this Administration's failure to enforce our 
immigration laws, we could line Border Patrol agents shoulder 
to shoulder at the southern border and it would not matter. 
Why? Because once apprehended by the Border Patrol, many of the 
children, teenagers, and adults arriving at the border simply 
game our asylum and immigration laws that the Obama 
administration has severely weakened.
    The Administration has done little to deal with this 
problem other than ensure that these claims be heard years down 
the road. In the meantime, these aliens can abscond and 
eventually fail to appear for their hearings. The Wall Street 
Journal just reported that the Justice Department has a special 
date reserved for thousands of immigrants awaiting their day in 
court, the day after Thanksgiving in 2019.
    If word got out that bogus credible fear and asylum claims 
were not being rubber-stamped and that claimants were not 
rewarded with almost certain release into the U.S. along with 
work authorization, the vast increase in claims might quickly 
abate. In the end, it doesn't matter how many aliens are 
apprehended along the border if apprehension itself becomes a 
golden ticket into the country.
    Successful immigration reform must enable effective 
interior enforcement. This is an integral piece of the puzzle. 
We can't just be fixated on securing the border while 
undoubtedly an issue of paramount concern.
    We must focus on interior enforcement or, more precisely, 
what to do with unlawful immigrants who make it past the border 
and legal immigrants who violate the terms of their visas and 
thus become unlawfully present in the United States.
    One reason why our immigration system is broken today is 
because the present and past Administrations have largely 
ignored the enforcement of our immigration laws. If we want to 
avoid the mistakes of the past, we cannot allow the President 
to continue shutting down Federal immigration enforcement 
efforts unilaterally.
    In the coming weeks, this Committee will hold hearings and 
address legislation that deals with the problem of the 
Administration's failure to enforce our immigration laws. We 
will not only provide the Administration with the tools it 
needs, we will also act to ensure that the President cannot 
unilaterally shut down immigration enforcement in this country.
    Only then will immigrants seeking to enter the U.S. have an 
incentive to obey our Nation's immigration laws. We must ensure 
enforcement of our immigration laws so that we can then move on 
to address other broken aspects of our immigration system, such 
as high-skilled visa reform and addressing our broken 
agricultural guest worker program.
    It is now my pleasure to recognize the Ranking Member of 
the Judiciary Committee, the gentleman from Michigan, Mr. 
Conyers, for his opening statement.
    Mr. Conyers. Thank you, Chairman Goodlatte.
    As we convene our first hearing of the 114th Congress, I 
continue to hope, as I have in past Congresses, that we will be 
able to work together in this Committee to address important 
challenges and advance the cause of justice. But as we look to 
the future, we must first remember where we have been 
particularly when it comes to the issue of immigration.
    In 2013, the Chairman began the very first hearing this 
Committee held by saying, ``This year Congress will engage in a 
momentous debate on immigration.'' Unlike the Senate, which 
engaged in that momentous debate and passed a bill with strong 
bipartisan support, the House never had the opportunity to hold 
that debate.
    Bipartisan reform bills in the House and Senate received no 
action at all. Instead, we just voted again and again to take 
Deferred Action for Childhood Arrivals, DACA, away from young 
people to deny due process protections to children fleeing 
violence and to block other sensible administrative reforms.
    Although the first hearings held by this Committee in each 
of the last two Congresses has dealt with immigration, the 
titles of the hearings and the witness lists could not be more 
different. In the last Congress, the hearing was titled 
``America's Immigration System: Opportunities for Legal 
Immigration and Enforcement of Laws Against Illegal 
Immigration.'' We discussed the need for immigration reform, 
including reforms to our legal immigration system. We even 
discussed the important question of how we treat the millions 
of undocumented people who are living in our communities today.
    The title of today's hearing, ``Examining the Adequacy and 
Enforcement of our Nation's Immigration Laws,'' focuses only on 
the issue of enforcement. And reading the testimonies submitted 
by our witnesses and the majority's press releases, it is clear 
that this hearing will not address opportunities for legal 
immigration. Instead, this hearing will address only claims 
that our immigration laws are, against all the evidence to the 
contrary, somehow not being adequately enforced.
    From the endless list of grievances, it is even hard to 
know what the focus of the hearing will be. Here are just a few 
of the topics that the majority and its witnesses plan to 
discuss today: The legal authority for the Administration's 
executive actions on immigration, the elimination of the 
Deferred Action for Childhood Arrivals program, the need to 
eliminate the credible fear process and tighten asylum laws 
designed to protect people from persecution and torture, the 
security of our borders, and the Administration's decision to 
set priorities when enforcing immigration laws in the interior. 
The list goes on, but I think I made the point that I wish to 
make here.
    We also know that this hearing sets the stage for a number 
of legislative hearings that the Subcommittee on Immigration 
and Border Security will be holding over the next 8 days--two 
legislative hearings on four bills that would make our 
immigration system more dysfunctional and unfair, not less so.
    Finally, the irony is not lost on me that the majority will 
spend the next several hours attacking this Administration for 
not taking enforcement seriously, but they are now threatening 
to shut down the Department of Homeland Security for the second 
time in just 15 months.
    Just last week all three former secretaries of Homeland 
Security, including two appointed by President George W. Bush, 
urged Congress not to jeopardize the Department's funding.
    They wrote, ``Funding for the DHS is used to protect our 
ports and our borders; to secure our air travel and cargo; to 
protect the Federal Government and our Nation's information 
technology and infrastructure from cyber attacks; to fund 
essential law enforcement activities; to guard against violent 
extremists; and to ensure the safety of the President and 
national leaders.''
    I ask unanimous consent, Mr. Chairman, to enter that letter 
into the record.
    Mr. Goodlatte. Without objection, it will be made part of 
the record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Conyers. Thank you.
    I hope we can get serious about legislating real solutions 
for our businesses, families, and national security.
    I thank our witnesses for being present and joining us 
today.
    And I yield back the balance of my time.
    Mr. Goodlatte. The Chair thanks the gentleman.
    And it is now my pleasure to recognize the Chairman of the 
Immigration Subcommittee of the House Judiciary Committee, the 
gentleman from South Carolina, Mr. Gowdy, for his opening 
statement.
    Mr. Gowdy. Thank you, Mr. Chairman.
    The consensus, Mr. Chairman, in this country is our current 
immigration system is broken, unworkable, and, frankly, not in 
the best interest of our fellow citizens. It is also the 
consensus that the current system is not being enforced, which 
undercuts the very foundation of this Republic, which is 
respect for and adherence to the rule of law.
    Previous attempts at immigration reform proved to be 
insufficient because, if they had been sufficient, we wouldn't 
be having another hearing or another national conversation 
about immigration reform. Decisions by Administrations, 
frankly, from both parties, to selectively enforce our 
immigration laws have had a negative effect on our system. In 
addition, both parties, through the selective enforcement of 
laws, have undercut the most fundamental of American virtues.
    Simply put, while most Americans realize the current system 
does not work, they are also skeptical that Congress will 
actually do what it is supposed to do or that this or future 
Administrations will actually enforce what reforms do pass, and 
this cynicism is well earned.
    An oft-repeated statistic bears mentioning again, Mr. 
Chairman: About 40 percent of those who are in the country 
unlawfully originally entered through lawful means. So while 
real and verifiable border security is critical, immigration 
reform cannot and will not be done without real, verifiable, 
and robust border security.
    A sovereign country should never apologize for having a 
secure border any more than this Congress or this Capitol 
apologizes for having metal detectors at every single 
entranceway.
    But just as border security is a condition precedent, so, 
too, is enforcement of our internal immigration laws if we are 
going to have a system that works and has any credibility in 
the eyes of both the American public and those who wish to 
legally emigrate here.
    This Administration, Mr. Chairman, has in the past claimed 
to have removed record numbers of unlawful or otherwise 
removable aliens from the United States, but ICE's own report 
indicates just last year more than two-thirds of all removals 
claimed by ICE involved aliens apprehended by the Border Patrol 
along the border or intercepted by inspectors at ports of 
entry.
    At the same time, under the guise of prosecutorial 
discretion, the Administration has handcuffed Federal 
immigration officers by--and I want you to note the irony, Mr. 
Chairman--telling law enforcement officers not to enforce the 
law. Therefore, a sustainable immigration solution needs to 
have mechanisms to ensure that the President, whether the one 
we have today or the one we have 10 years from now, cannot 
simply turn off the switch on enforcement.
    State and local law enforcement have a role in every single 
facet of law enforcement. So why can't we give them a role in 
immigration enforcement? We trust State and local law 
enforcement officers to enforce every category of the law from 
murder, to child sex cases, to narcotics trafficking, to child 
pornography.
    Mr. Chairman, they even have primary responsibility to 
patrol and enforce something as inherently interstate as the 
interstate highway system. But, yet, we can't seem to muster 
the confidence in them to give them a role in enforcing our 
immigration laws. So we trust them with murder cases. We just 
can't muster the courage to trust them with immigration cases.
    So I want to know why we can't grant States and localities 
the specific congressional authorization envisioned by the 
Supreme Court that allows them to play a supporting role in the 
enforcement of our immigration laws.
    There are 5,000 ICE agents that have the responsibility for 
enforcing our Nation's immigration laws, but there are 730,000 
State and local law enforcement officers. And let's remember 
that those State and local law enforcement officers are subject 
to exactly the same constitutional restrictions as Federal law 
enforcement officers.
    So, in conclusion, Mr. Chairman, if we want a long-term 
sustainable solution, we have to address interior enforcement. 
Selective enforcement of the law is destructive to our system. 
Ignoring laws simply because we wish they weren't laws is 
destructive to the system. And the result has been a pervasive 
sense that our law, frankly, just doesn't matter anymore.
    So the American people rightfully expect and deserve the 
laws we pass to actually be enforced. It would be a good idea 
if the Congress had the same expectation.
    With that, I would yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentlewoman from Texas, Ms. Jackson Lee, for her 
opening statement on behalf of the Subcommittee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. Thank 
you for the yielding.
    I have always held the proposition that, in the Judiciary 
Committee, we are tied to the facts. And I think it is 
important as we begin this oversight again that we make note of 
the fact that President Obama's administration has in the last 
years, in 1 year, detained a record 429,247 people.
    He has, in essence, removed 1,570,510 in one term, almost 
as many as President Bush did in two terms. The facts is what 
is going to make this hearing, again, over and over again, a 
relevant hearing.
    I think it is important also to note that ICE, in 1 year, 
detained and removed 216,000 of those individuals to be 
deported who had been convicted of crimes in the United States, 
an all-time high.
    So I hope that our hearing this morning casts the wide lot 
of telling the truth. The purpose of this hearing appears, 
again, to criticize President Obama's administration that they 
failed to enforce the law in the interior and at the border.
    I have noted my good friend mentioning the idea of State 
law enforcement officers and, constitutionally, what is yielded 
to the Nation is yielded to the Nation. Collaboration is always 
good, and we have done that over the years.
    But, as you know, we are nearly a year and 8 months removed 
from having passed out of the Judiciary Committee several 
immigration bills, none of which have seen the light of day on 
the House floor. The bills were agriculture, border security, 
employment, and workplace compliance. But, since then, nothing, 
Mr. Chairman, no Rules Committee hearings, no floor action.
    In addition, the Senate acted by passing a bipartisan 
immigration bill, S. 744, the ``Border Security, Economic 
Opportunity, and Immigration Modernization Act,'' as a 
comprehensive immigration reform that included provisions on 
border security, interior enforcement, employment eligibility, 
verification, and work site enforcement, legalization of 
unauthorized aliens, immigrant visas, not immigrant visas and 
humanitarian admissions, a bill that has never seen any 
activity on the floor.
    I have a bill, as I heard the Chairman mention about the 
delay in immigration resolution of their cases, H.R. 77, that I 
would hope this Committee would take up that calls for the 
appointment of 70 additional immigration judges. That, I think, 
would answer some of the concerns that have been raised to 
process these cases.
    Our Judiciary Committee colleagues on this side of the 
aisle understand how important it is for the United States to 
have in place an effective strategy that secures the Nation's 
borders and commands broad bipartisan support from both 
parties. So it is timely that we are talking about border 
security immigration reform.
    Unfortunately, neither bill that the Judiciary Committee 
plans to take up, nor H.R. 99, the border security bill that 
voted party-line votes--the Republicans voted for it in 
Homeland Security--is the best legislative vehicle.
    If House Republicans are serious--or were serious about 
immigration reform, they would bring to the floor H.R. 15, a 
bipartisan comprehensive immigration bill introduced in the 
last Congress.
    And if our friends in the majority were serious about 
border security, they would bring to the floor for a vote the 
highly praised and critically acclaimed bill that was favorably 
and unanimously reported last session out of the Homeland 
Security Committee, H.R. 1417.
    Having recently visited the border in California--and there 
were several other visits that I have taken, from Arizona, to 
New Mexico, to my own State and many other States--asking 
questions about the issues of border security, we found that, 
when we work together collaboratively, we can solve our 
problems. Casting accusations are not the solution.
    The President's executive actions that we are probably 
going to scrutinize again had to do with enforcement with the 
idea of prioritizing because of limited enforcement resources. 
Obviously, the shutting down of the Department of Homeland 
Security will not help that situation.
    House Republicans are focused on ending DACA and blocking 
these executive actions with the ultimate goal of deporting 
DREAMers and ripping parents away from their U.S. citizen and 
lawful permanent-resident children.
    The President's executive actions are meant to focus our 
efforts on deporting felons, not families. Proposals championed 
by Judiciary Republicans, like the SAFE Act, are meant to turn 
families into felons.
    We have educators in the audience, and I know they 
understand the importance of educating all children. We are 
simply trying to have a regular orderly system that these 
children can be statused so they can be educated and 
contributing to American society.
    At the same time, House Republicans are refusing to fund 
this Department. And I wonder what the 9/11 committee that 
brought together this bipartisanship over an enormous tragedy 
of 9/11 and created the Homeland Security Department as the 
front lines of securing this Nation--what would they think of 
us shutting them down?
    So, Mr. Chairman, let me conclude by saying that the Border 
Security Results Act of 2013 provided the Department of 
Homeland Security with a road map that contributes to some of 
the answers that will be responding to the questions that have 
been raised by my colleagues. It asks for a national plan, a 
situational awareness, metrics and results, independent 
verification.
    This is the approach that we should take, a collaborative 
effort to ensure that we work together on behalf of the 
American people, not in contrast, H.R. 399, that undermines the 
very structure of leadership of the Homeland Security 
department and, in actuality, has been criticized by Border 
Patrol agents. This is not the way to go.
    I hope this hearing today will be constructive, not 
carrying a message of attack without information, because, in 
actuality, we will not be able to provide for a rational, real 
response to immigration or a rational, real response to border 
security without the collaboration and the input of people 
concerned about the American people and not making political 
points.
    With that, I yield back my time.
    Mr. Goodlatte. I would like to ask unanimous consent to add 
to the record a Wall Street Journal article entitled ``U.S. 
Delays Thousands of Immigration Hearings by Nearly 5 Years,'' 
and an Associated Press article entitled, ``US: immigrant 
families fail to report to agents.'
'
    [The information referred to follows:]
    
        
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
    Ms. Jackson Lee. Mr. Chairman.
    Mr. Goodlatte. What purpose does the gentlewoman from Texas 
seek recognition?
    Ms. Jackson Lee. Mr. Chairman, I ask unanimous consent to 
enter the following statements into the record from the 
following organizations: Women's Refugee Commission, Asian 
Americans Advancing Justice, American Immigration Lawyers 
Association, and the Lutheran Immigration and Refugee Service. 
I ask unanimous consent.
    Mr. Goodlatte. Without objection, they will be made a part 
of the record.

    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                               __________
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               
                               
    Ms. Jackson Lee. I thank you.
    Mr. Goodlatte. We welcome our distinguished panel today. If 
you would all please rise, I will begin by swearing in the 
witnesses.
    Do you and each of you swear that the testimony that you 
are about to give shall be the truth, the whole truth, and 
nothing but the truth, so help you God?
    Thank you very much. Let the record reflect that all of the 
witnesses responded in the affirmative.
    Sheriff Paul Babeu is the sheriff of Pinal County, Arizona, 
where he was named America's 2011 Sheriff of the Year, as 
selected by his colleagues in the National Sheriffs' 
Association.
    Since being elected to his first term in 2008, he has since 
acted decisively to disrupt cartel activities along the 
southern border and has emerged as a national leader on border 
security.
    Babeu holds an associate's degree in law enforcement from 
the Arizona Law Enforcement Academy, a bachelor's degree in 
history and political science from Massachusetts College of 
Liberal Arts, and a summa cum laude master of public 
administration degree from American International College.
    Mr. Jan C. Ting currently serves as a professor of law at 
the Temple University Beasley School of Law, where he teaches 
immigration law, among other courses.
    In 1990, Mr. Ting was appointed by President George H.W. 
Bush as Assistant Commissioner for the Immigration and 
Naturalization Service of the U.S. Department of Justice. He 
served in this capacity until 1993, when he returned to the 
faculty at Temple University.
    He received an undergraduate degree from Oberlin College, 
an M.A. from the University of Hawaii, and a J.D. from Harvard 
University School of Law.
    Ms. Jessica Vaughan currently serves as the Director of 
Policy Studies for the Center for Immigration Studies. She has 
been with the Center since 1992, where her expertise is in 
immigration policy and operations topics, such as visa 
programs, immigration benefits, and immigration law 
enforcement.
    In addition, Ms. Vaughan is an instructor for senior law 
enforcement officer training seminars at Northwestern 
University's Center for Public Safety in Illinois. Ms. Vaughan 
has a master's degree from Georgetown University and earned her 
bachelor's degree in international studies at Washington 
College in Maryland.
    Dr. Marc Rosenblum is the Deputy Director of the Migration 
Policy Institute's U.S. immigration policy program, where he 
works on U.S. immigration policy, immigration enforcement, and 
U.S. regional migration relations. Dr. Rosenblum returned to 
MPI, where he had been a senior policy analyst, after working 
as a specialist in immigration policy at the Congressional 
Research Service.
    Dr. Rosenblum earned his B.A. from Columbia University and 
his Ph.D. from the University of California, San Diego, and is 
an associate professor of political science at the University 
of New Orleans.
    Your written statements will be entered into the record in 
their entirety. And I ask that each of you summarize your 
testimony in 5 minutes or less. To help you stay within that 
time, there is a timing light on your table. When the light 
switches from green to yellow, you have 1 minute to conclude 
your testimony. When the light turns reds, that is it. Your 
time is up.

            TESTIMONY OF THE HONORABLE PAUL BABEU, 
           SHERIFF OF PINAL COUNTY, FLORENCE, ARIZONA

    Mr. Goodlatte. Sheriff, welcome. We will begin with you.
    Sheriff Babeu. Mr. Chairman, Members, thank you for 
welcoming us today.
    Paul Babeu. I serve as sheriff of Pinal County, Arizona. 
Where we are located, 5,300 square miles, larger than the State 
of Connecticut, sandwiched in between metro Tucson and metro 
Phoenix. We have had the unfortunate title of being one of the 
largest smuggling routes for drugs in humans in the entire 
Nation.
    We experience in Arizona, just in the Tucson sector, one of 
the nine southwest border patrol sectors, anywhere from 88,000 
to 123,000 illegals that have been apprehended, and that is 
just in recent years. And 17 to 30 percent of those, depending 
on which leader of the Border Patrol you talk to, have a 
criminal record already in the United States.
    And according to the GAO, 56 percent of the border is not 
under operational control like the Yuma sector is. And 
regardless who you speak to--and everybody seems to have their 
own facts--but this clearly shows that the border is not more 
secure than ever.
    Our county led the largest drug bust in the history of 
Arizona, $3 billion against the Sinaloa Cartel. In 1 day, we 
arrested 76 members of the Sinaloa Cartel, carrying 108 
weapons, not just handguns--these are scoped rifles and AK-
47s--two of which were traced back to Fast and Furious 
operation. This is in my county.
    Drug cartel scouts. Last year we arrested--we continue to 
pursue them as we speak--scouts. These are lookouts on 
mountaintops in my county over a 50-mile swath of area along 
Interstate 8 and 10, where they have binoculars and they are 
looking out.
    And they occupy these high-terrain features for 30 days at 
a time, resupplied with food and water, have all electronics, 
encrypted radios, that we don't even have, and they have solar 
panels to recharge all this equipment. And every time a drug 
load comes by, they get paid $100. And this is over this entire 
swath of area.
    When I tell a story like that, having served a tour in Iraq 
and commanded soldiers in the Army, it almost appears I am 
telling a story of some war-torn area. This is on American 
soil. And that is what is so disruptive, is the fact that here, 
as the sheriff where our primary job is to answer 9/11 calls, 
how on Earth did we get here to this place that local law 
enforcement is leading the effort to fight criminal syndicates 
from a foreign nation on American soil?
    Mass prison break. I want to talk to you about that. 
February 23, ICE--this is again in my county, where we led this 
effort to expose what had happened--we had a release of 400-
plus criminal illegals. Now, these are the ones that--everybody 
has their own opinion about the 11-plus million illegals who 
are here and what we should do.
    Everyone, at one point, including the President, had agreed 
that these 34,000 beds that this Congress has authorized--
which, to correct respectfully the Chairman, there is not 
27,000 in there. I was updated last week there is 24,000 
currently in beds in these facilities--that we had a mass 
release 2 years ago of criminals that had everywhere from rape 
charges, two that were charged with manslaughter, convictions 
for child molestation, financial felony crimes, aggravated 
assault against law enforcement, and armed robbery released 
into my county.
    I demanded the information--the names and the criminal 
history of this information. It has been refused to this date. 
I, as a sheriff, who swore an oath to protect the people of my 
county, should have a right to that information.
    Five, 10, 14, 16 times, these are the illegals that--don't 
be scratching your head why they keep coming back. My deputies 
are arresting them for State crimes. This one had been arrested 
16--now it is the 17th time. In law enforcement, we call these 
clues. Right? This is a clue that there is no enforcement. This 
is this past year, folks.
    Six-page memo from Secretary Johnson, the very night that 
the President gave a speech. President said 5 years or longer, 
deferred action. In reality, the truth of this is January of 
2014. If you have been here from that date and before, you get 
deferred action.
    Thirty to 50 criminals released every day in my county from 
ICE facilities, and this was told to me from the director for 
Arizona for ERO, John Gurley. He is not going to be happy that 
I shared this information. Two separate phone calls.
    These were the people that everybody, including our 
President, said were the bad actors, that, if anybody, the ones 
who have committed serious violent felonies or multiple 
misdemeanors have to be sent back to their country of origin. 
Then, how is it okay now that we are releasing 30 to 50 of 
these individuals a day right now?
    And I would urge this Committee and this Congress to stand 
up as a lawmaking body to enforce the laws, just as you expect 
me and every other law enforcement officer locally to do, and 
secure the border.
    Thank you, Mr. Chairman.
    [The prepared statement of Sheriff Babeu follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                   __________
                                   
    Mr. Goodlatte. Thank you, Sheriff. And my apologies for not 
getting your name pronounced correctly.
    Sheriff Babeu. That is all right.
    Mr. Goodlatte. But we will improve on that.
    Sheriff Babeu. Thank you, sir.
    Mr. Goodlatte. Professor Ting, welcome.

          TESTIMONY OF JAN C. TING, PROFESSOR OF LAW, 
            TEMPLE UNIVERSITY BEASLEY SCHOOL OF LAW

    Ms. Ting. Thank you, Mr. Chairman, and all Members of the 
Committee.
    I have submitted written testimony.
    And in part I of that testimony, I discuss the basic 
question of whether we are going to have a limit on immigration 
in the United States or, alternatively, whether we are going to 
have no limit or whether we are going to enforce the limit.
    In part II, I discuss various initiatives that amount to 
abandonment of deterrence in our immigration law enforcement 
and the consequences thereof.
    In part IV of my written testimony, I discuss what I think 
is the primary reason for having immigration law, which is to 
protect the jobs and wages of American workers from foreign 
competition.
    But I want to discuss with you part III of my written 
testimony, which is ``Asylum Abuse and Expedited Removal.''
    When I last testified in this hearing room about a year 
ago, I suggested that making asylum claims has become 
commonplace as a path to an immigrant green card for aliens 
without other alternatives and that false asylum claims have 
become common and often deceive U.S. asylum adjudicators into 
granting asylum status.
    The perception that false asylum claims often work and at 
least delay removal of illegal aliens from the United States, 
sometimes for long periods, adds to the benefit side of the 
cost-benefit analysis, which is attracting additional illegal 
immigration into the United States.
    Convictions for and exposures of false asylum claims are 
very difficult and expensive to attain. The difficulties are 
compounded when the number of asylum applications is 
increasing. And I have submitted some statistics documenting 
that.
    The concept of ``credible fear'' was instituted by the 
former Immigration and Naturalization Service as an informal 
screening-out device for the large numbers of Haitians 
interdicted on boats on the high seas headed for the United 
States after the Haitian coup of 1991. The idea was that people 
interdicted on boats who could not articulate a credible fear 
that could qualify them for asylum would be repatriated to 
Haiti without further deliberation.
    When Congress enacted ``expedited removal'' in 1996 for 
certain arriving and recently arrived aliens who lacked 
documentation, it incorporated the concept of ``credible fear'' 
into the statute in the hope that it could also be used as a 
screening-out device for aliens making asylum claims.
    Unfortunately, what has happened is a high approval rate 
for credible fear claims--the stories have spread as to how to 
achieve a credible fear--and the resulting backlog in the 
immigration court system, which the Chairman has referred to, 
have meant that, in practice, ``credible fear'' has served to 
screen into the United States undocumented aliens who don't 
really have an asylum claim, but can meet the ``credible fear'' 
test, the low threshold.
    That explains why so many illegal border-crossers don't run 
from the U.S. Border Patrol, but instead seek them out to make 
their ``credible fear'' claims subject to that low threshold.
    Congressional intent in enacting ``expedited removal'' has 
been frustrated by the presence of this low-threshold 
``credible fear'' screening-in device. But Congress can and 
should amend the immigration laws to remove the role of 
credible fear in frustrating expedited removal.
    All Border Patrol and other Customs and Border Protection 
agents should be mandated to receive training and asylum law as 
part of their basic training. Such trained agents should be 
authorized to make asylum adjudications as part of the 
expedited removal process. Expedited removal was created by 
Congress. Congress can amend the law. All references to 
credible fear in further hearings by an immigration judge 
should be removed from the expedited removal statute.
    The statute could then be amended to read, ``If an asylum-
trained officer determines that an alien does not have a well-
founded fear of persecution pursuant to Section 208, the 
officer shall order the alien removed from the United States 
without further hearing or review.'' That is not that different 
from the statute the way it reads now.
    Additionally, just as the credible fear standard may have--
and let me just say I think that is the single most effective 
change to facilitate immigration enforcement that can be made, 
is strengthening the expedited removal process at our border.
    Additionally, just as the credible fear standard may have 
lost value as alien smugglers game the system and spread the 
stories that work, so the asylum statute itself, 208, while a 
useful addition to our immigration law when added in 1980, may 
have lost value as the stories have spread that work in 
convincing an adjudicator to grant asylum.
    How did we meet our obligations before 1980 when 208 
entered our law? We had a statute, withholding of deportation, 
that prevents the removal of aliens if the alien's life is 
threatened on account of race, religion, nationality, social 
group, or political opinion.
    I would like to see Congress consider enhancing the 
withholding of removal statute by adding to it some of the 
benefits of asylum with the goal of having a single enhanced 
withholding of removal statute for the protection of refugees. 
That statute has and will have a higher burden of proof than 
the asylum statute and should, therefore, be less susceptible 
to fraud.
    I thank the Chairman and the Committee.
    
    [The prepared statement of Ms. Ting follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                   __________
                   
    Mr. Goodlatte. Thank you, Professor Ting.
    Ms. Vaughan, welcome.

         TESTIMONY OF JESSICA M. VAUGHAN, DIRECTOR OF 
         POLICY STUDIES, CENTER FOR IMMIGRATION STUDIES

    Ms. Vaughan. Good morning. And thank you for the 
opportunity to testify.
    Currently, immigration enforcement is in a state of 
collapse. The vast majority of illegal aliens face no threat of 
deportation, regardless of when or how they arrived. New 
illegal arrivals continue from land, air, and sea, and the size 
of the illegal population stopped declining several years ago. 
We now know that millions of these illegal aliens and short-
term visa-holders have been issued work permits outside the 
limits set by Congress.
    The Obama administration's deliberate dismantling of 
enforcement has imposed enormous costs on American communities 
in the form of lost job opportunities, stagnant wages for 
native workers, higher tax bills to cover increasing outlays 
for social services and benefits, compromised national 
security, and needless public safety threats.
    One of the most urgent tasks now before Congress is to 
restore integrity to our immigration laws by ending the massive 
catch-and-release scheme put in place by the Obama 
administration. This has to include the establishment of more 
effective deterrents to illegal settlement and tools for more 
efficient enforcement.
    But it has now become clear that, even if those 
improvements are made, just as the Border Patrol's good work in 
apprehending illegal border-crossers is undercut by policies 
that result in their release, good work by ICE can be undercut 
if those same illegal aliens that they arrest in the interior 
are simply released and issued a work permit. That is a 
benefit. That is not prosecutorial discretion.
    Statistics published by the DHS show clearly that, over the 
last several years, even as illegal border crossings have grown 
and the number of over-staying visitors is large, the number of 
deportations has plummeted and the number of illegal aliens 
allowed to stay and work in the United States has increased.
    Apprehensions, which are generally considered an indicator 
of the number of people trying to enter illegally, have 
increased by 43 percent since 2011, and this is largely due to 
the increase in unaccompanied minors and family units who 
arrived last summer.
    Those arrivals are continuing, by the way, and the numbers 
for unaccompanied juveniles are still about double the rate of 
2 years ago. The apprehension statistics are concerning enough, 
but they don't tell the whole story. CBP has yet to disclose 
how all these cases were disposed of, specifically how many of 
those apprehended were released into the United States instead 
of removed and how many of them may have been issued a work 
permit.
    From other government data, we do know that only a few 
hundred of the surge arrivals have been deported. While it is 
generally accepted that 40 percent of the illegally residing 
population is comprised of over-stayers, they are not a high 
priority for deportation.
    In 2013, only 3 percent of ICE deportations were classified 
as overstays. The most concerning aspect of the thoroughly 
dismal enforcement numbers are the interior numbers, which are 
important because they have a direct effect on American 
communities. ICE deportations from the interior have dropped 
nearly 60 percent since 2009, and they are already down another 
20 percent from last year.
    Despite Administration claims of a focus on felons, 
criminal alien deportations are down, too. Criminal alien 
deportations are down 30 percent over last year at this time 
and 40 percent since 2012, and this is despite the fact that 
ICE is able to identify more criminal aliens than ever before 
as a result of the Secure Communities program.
    The Administration's so-called prosecutorial discretion 
policies that are responsible for this lawlessness have public 
safety consequences. We learned earlier this year that ICE 
released more than 36,000 convicted criminal aliens from its 
custody, many with serious convictions, and now we know that a 
large number of them have been arrested again for subsequent 
offenses.
    In 2014, ICE released another 30,000 convicted criminal 
aliens. It is bad enough that they are released, but ICE has 
cut back on the supervision as well. More and more are released 
on bond or recognizance, and there have been tragic 
consequences, as recently happened in Arizona, where an illegal 
alien who was a convicted felon on burglary charges was 
released by ICE without supervision and then, while waiting for 
his deportation hearing that still is unresolved 2 years later, 
murdered a 21-year-old convenience store clerk over two packs 
of cigarettes.
    So it has been reported that this Committee is hard at work 
on legislation, and I look forward to seeing the results. But I 
again want to emphasize that, unless Congress acts immediately 
to rein in executive abuse of power, specifically the issuance 
of work permits and catch-and-release, all of the good work 
that comes about as a result of enforcing the laws is for 
naught.
    Thank you.
    [The prepared statement of Ms. Vaughan follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Mr. Goodlatte. Thank you, Ms. Vaughan.
    Dr. Rosenblum, am I pronouncing your name correctly?
    Mr. Rosenblum. ``Rosenblum.'' Thank you.
    Mr. Goodlatte. ``Rosenblum.'' Okay. Well, I am only two for 
four here today, but we will work on that.
    And welcome. Thank you.

     TESTIMONY OF MARC R. ROSENBLUM, DEPUTY DIRECTOR, U.S. 
     IMMIGRATION POLICY PROGRAM, MIGRATION POLICY INSTITUTE

    Mr. Rosenblum. Thank you.
    Chairman Goodlatte, Ranking Member Conyers, Members of the 
Committee, thank you for the opportunity to testify today.
    In any immigration system, illegal immigration depends on 
three factors: the economic, social, and demographic drivers of 
my migration flows; the laws that define who may enter legally; 
and immigration control measures to enforce these rules. When 
the drivers of migration exceed the legal limits, the result is 
illegal immigration, unless adequate enforcement measures are 
in place to prevent it.
    In the U.S. case, large-scale illegal immigration began in 
the late 1960's after two legislative developments: Congress 
eliminated the U.S.-Mexico Bracero Program, which had admitted 
450,000 guest workers per year; and it passed the 1965 
Immigration and Nationality Act, which imposed the first 
numerical limits on permanent migration from Mexico and Latin 
America.
    These changes occurred as America's transition to a post-
industrial economy boosted demand for low-skilled, low-wage 
workers and as demographic changes resulted in a growing prime-
age workforce in Mexico and an aging workforce in the U.S.
    Congress held hearings on illegal immigration starting in 
1970, but didn't pass legislation until 1986, and serious 
enforcement only began in the mid-1990's. With strong migration 
drivers, limited legal visas, an inadequate enforcement system, 
the unauthorized population increased from fewer than 2 million 
in 1970 to 12.4 million at its peak in 2007.
    The story is different in the post-9/11 period and 
particularly in the last decade. Following passage of the 
Secure Fence Act, DHS has installed over 650 miles of border 
fencing covering every part of the border the Department has 
identified as appropriate.
    The Border Patrol has virtually eliminated the use of 
voluntary return for border-crossers. The proportion of border 
apprehension subject to voluntary return fell from about 95 
percent during the 1990's, to 82 percent in 2005, to less than 
10 percent today.
    Following implementation of the Streamline program and 
other efforts to expand border prosecutions, almost one in four 
people apprehended at the border now face criminal charges, up 
from just 3 percent in 2005. Perhaps the biggest change since 
2005 is with respect to interior enforcement.
    Removals from within the United States increased from fewer 
than 50,000 per year to 188,000. Criminal removals have more 
than doubled, from 91,000 in 2003 and just 30,000 in 1995, to 
207,000 in 2012. And overall removals have averaged 406,000 per 
year since 2009, the 6 biggest years in U.S. history.
    So one point I want to emphasize is that the changes since 
2005 have produced results. As I describe in my written 
statement and in two recent MPI reports on deportation policy, 
which I ask also be entered into the record, new resources and 
strategies have had a dramatic impact.
    When you look at what we know about the proportion of 
border-crossers being apprehended, add smuggling fees, add 
recidivism and deterrence, it is clear that the costs of 
illegal immigration have increased and that tough enforcement 
influences people's migration decisions.
    So what we have seen is that apprehensions of Mexicans at 
the southwest border fell from 1.6 million in 2000 to 226,000 
in 2014. That is an 86 percent reduction in 15 years and the 
lowest level we have seen since 1969.
    Most importantly, the total unauthorized population has 
fallen by 1 million people since 2007, the first time we have 
ever seen a drop in this number other than through 
legalization. And the latest numbers I have seen say that it is 
still falling, that it is down to 11 million in 2013.
    The other point I want to emphasize that these gains have 
not come cheaply. The United States has spent $208 billion on 
immigration enforcement since 2001. We spend more money on 
immigration enforcement than on all other Federal criminal law 
enforcement agencies combined. Immigration now accounts for 47 
percent of all cases in Federal, district, and magistrate 
courts, crowding out other issues.
    Hundreds of cities and counties, along with three States 
and the District of Columbia, have passed legislation limiting 
how local law enforcement can cooperate with DHS because they 
believe aggressive enforcement endangers their communities.
    And more than 3.6 million deportations since 2003, 
including more than 1.3 million of people living inside the 
United States, have had a huge impact on U.S. families and 
communities. A growing number of Americans rejects this 
approach.
    We know what it would take to design a more efficient and 
sustainable enforcement system. Illegal immigration is a three-
dimensional issue based on the underlying demand for migration 
flows, the supply of visas, and enforcement. Yet, for 40 years, 
U.S. policy has focused almost entirely on enforcement. By 
failing to address the structural roots of immigration flows or 
the policy roots of illegality, we have battled illegal 
immigration with one hand tied behind our back.
    I urge this Committee to support a more balanced set of 
policies that also address these supply-and-demand issues that 
are the root causes of illegal immigration. Balanced policies 
in the long run will be more efficient, more effective, and 
more humane.
    Thank you very much.
    [The prepared statement of Mr. Rosenblum follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               __________
    Mr. Goodlatte. Thank you, Dr. Rosenblum.
    I'll recognize myself first for questions.
    Professor Ting, I was particularly taken by your statement, 
which I agree with, that the primary purpose of our immigration 
laws is to protect the jobs and wages of American workers.
    Would you elaborate on that and tell us whether you think 
that the current Administration is fulfilling that purpose.
    Mr. Ting. Mr. Chairman, it seems like every month we have 
new employment figures come out and the Administration does a 
little victory lap celebrating the increasing number of jobs.
    But, as everyone knows, wages have remained stagnant in the 
United States and a lot of American workers are suffering from 
either unemployment or underemployment, working multiple part-
time jobs, trying to string a life together. I think it is 
clear that we haven't recovered from the recovery. And, yet, 
the stock market seems to be hitting highs every month, record 
highs.
    And I think it is not a contradiction that the stock market 
keeps hitting highs and American workers keep suffering from 
low wages and underemployment. I think there is an effort 
underway to facilitate immigration, legal and illegal, into the 
United States in order to suppress the wages of American 
workers.
    And I think there is a lot of talk about rising economic 
inequality in America. I am concerned about that. And I think, 
you know, dealing with illegal immigration is part of doing 
something for American workers, protecting their jobs, 
protecting their wages.
    In Philadelphia, we have got fast-food workers and baggage 
handlers at the airport demanding a raise to $15 an hour in 
2015. Good luck with that. Because the President has already 
announced he is going to add 5 million illegal immigrants to 
the legal workforce in 2015, and every employer knows that.
    So, you know, I don't think our American workers are going 
to get the raise that they want and need. And I think we have 
to look at the reason why, with rising numbers of jobs, wages 
don't go up. If you believe in market theory, wages should be 
going up. They are not. It has something to do with 
immigration.
    Mr. Goodlatte. Thank you very much.
    Let me say to Dr. Rosenblum I appreciate your enthusiasm 
for the success of this Administration, but the facts tell a 
different story.
    When you look at actual ICE interior removals from 2009, 
the first year of the Obama administration, through 2014, they 
have dropped from 237,941 to 102,224 last year. I think that is 
a dramatic representation of what is really happening with 
regard to enforcement of immigration laws.
    And, Sheriff Babeu, I would like to ask you if you could 
comment on what you are experiencing right there in the field 
along the border in terms of what is happening with immigration 
into this country.
    Sheriff Babeu. Yes, Mr. Chairman.
    I can tell you that the day after, when we had 1070, the 
Supreme Court had a ruling that said local law enforcement was 
not for--under the Supremacy Clause, to be involved in that 
particular case on that ruling.
    We had immigration----
    Mr. Goodlatte. And the next day the Obama administration 
removed Arizona from participating in the program altogether, 
didn't they?
    Sheriff Babeu. Correct. We were the one State that was 
actually, I believe, punished for that.
    And the situation, as I outlined a little bit, in terms of 
the smuggling routes that are occupied largely by the Sinaloa 
Cartel, Homeland Security has even said publicly 75 to 100 of 
these lookout posts that have been identified. There is far 
more than that. They are not all occupied at the same time. So 
this is what we see, this robust effort that still is ongoing.
    I have literally hundreds of press releases here. There 
have been cases, 30 to 50 illegals that are running through 
neighborhoods in the western part of my county. Largely, we are 
a pass-through county. So they are oftentimes transported by 
vehicles. And many times we see them make a 3- to 5-day march 
that is very dangerous through very treacherous, high-
temperature desert.
    We often find ourselves that are--responding to emergencies 
because they are targeted for all kinds of crimes, anything 
from robbery to----
    Mr. Goodlatte. Let me interrupt you because my time is 
running down.
    But isn't a major component of this not just what is done 
along the border, but having interior enforcement where, 
instead of what is occurring today, which appears to be a 
policy of catch-and-release, to actually have laws that make 
sure that people who nowadays are--I was down on the border 
last year and I saw them turning themselves in voluntarily----
    Sheriff Babeu. Right.
    Mr. Goodlatte [continuing]. And then claiming all kinds of 
things that allow them to remain in the United States.
    Is reforming those laws and allowing the ICE agents to do 
their job a critical part of an enforcement? And is that 
occurring with this Administration right now?
    Sheriff Babeu. That is not, Mr. Chairman. As I pointed out, 
the countless cases we see 5 times deported, 10 times, 12 
times--in that one case, 17 times--I am proud to admit, and it 
is confirmed by the Border Patrol that they have been deported. 
So if there is no catch and release, how are they coming back? 
And it stands to reason that that is not as many times as they 
actually came into the country illegally.
    Mr. Goodlatte. Thank you very much. My time has expired.
    The gentlemen from Michigan, Mr. Conyers, is recognized for 
5 minutes.
    Mr. Conyers. Thank you very much.
    Dr. Rosenblum, would you care to respond to the Chairman's 
question that was posed to you? Do you recall it?
    Mr. Rosenblum. Sure. Thank you, Congressman.
    We recently analyzed ICE's administrative removal records 
and were able to analyze their interior removals and their 
border removals. And what the data we have looked at show is 
that interior removals increased from 73,000 in 2008 to--I am 
sorry, from 150,000 in 2008 to 188,000 in 2011. And then they 
had declined to 131,000 in 2013.
    But what you also see in the data is that criminal removals 
from the interior have increased over this period. So, in 2008, 
there were only 81,000 criminal removals from the interior 
versus 114,000 in 2013. So we have seen a little bit of a 
quantity versus quality tradeoff where the Administration 
appears to be focusing, you know, as they have said in their 
formal description of their policy, to be focusing on criminal 
removals from the interior and focusing on border enforcement. 
So we have seen the border removals numbers go up and the 
interior criminal removals go up.
    Mr. Conyers. Thank you so much.
    Let me ask you about a comment that Sheriff Babeu made in 
his written testimony--that ``the failure to secure the border 
after the Reagan amnesty got us where we are today with 11 
million or more illegals in our Country.''
    I think you addressed this point in your written testimony. 
Could you give us a response here before the Committee?
    Mr. Rosenblum. Sure. Thank you. I mean, there is no 
question that illegal immigration has increased since the 1986 
IRCA. And one reason is that IRCA was a flawed bill strictly 
from an enforcement perspective. Its biggest shortcoming is 
that the employer sanctions provisions are mostly 
unenforceable. So IRCA left in place the jobs magnet that 
continues to attract most unauthorized immigrants.
    And in fortifying the border, IRCA started a trend of 
raising the costs of crossing the border, which has increased. 
But at least for the first 10 or 20 years, what social 
scientists who have studied the border have found is that it 
increased the cost enough to discourage circularity so people 
who arrived stopped going home, but it didn't increase the cost 
enough to prevent people from coming. So IRCA and the border 
enforcement in the 1980's and 1990's tended to trap 
unauthorized immigrants within the U.S.
    But the most important thing that IRCA failed to do was 
address any of the drivers of illegal immigration or any of the 
disparity between the supply and demand of visas. So IRCA 
failed to provide visas to satisfy the demand for labor flows 
that existed.
    Mr. Conyers. Thank you, sir.
    Sheriff Babeu, I wanted to see if you could direct me to 
the memo in which Secretary Johnson showed ICE would no longer 
enforce the law against the 11 million people in the country or 
that it would grant deferred action to 20 million people. Do 
you have those documents?
    Sheriff Babeu. Absolutely. Through the Chair--this is a 
memo dated November 20. And it is from Secretary Jeh Johnson 
to--he has 22 subagencies. And he outlines in great detail the 
six-page memo. And I will point you to page number 4, section 
C,that if they had been present in the United States 
continuously since January 1st of 2014--and on that page, it is 
outlined in great detail about prosecutorial discretion. And 
you don't have to be a lawyer to figure out that that wasn't 
intended for an entire class of people or to just arbitrarily 
waive the law as has been done here.
    It is for certain----
    Mr. Conyers. I am going to have to--I see the lights on 
here.
    Sheriff Babeu. Yes, sir.
    Mr. Conyers. Dr. Rosenblum, do you have any comment to the 
response that we have from the sheriff?
    Mr. Rosenblum. What I understand from the memo--I have 
looked at that memo from 2014. That memo defines the 
Department's enforcement priorities and also describes within 
each of the different priority levels the criteria for making 
an individual determination, looking at the totality of the 
circumstances about, you know, whether or not ICE and other 
enforcement agents are directed to consider discretion in a 
case. But I don't read the memo to categorically describe a 
whole class.
    Mr. Conyers. Let me go to my last question.
    In recent years, critics of the Administration have begun 
to add removals and returns together in an attempt to argue 
that the Administration is not enforcing our immigration laws 
like it used to.
    What do you think of that criticism?
    Mr. Rosenblum. Well, Congress in 1996 created the removal 
process. And it is designed as a tougher form of enforcement 
that carries with it bars on admissibility and criminal 
penalties for people who reenter.
    What we have seen over the years is that the total number 
of deportations, removals plus returns, maps very closely to 
the total number of apprehensions. They are correlated at .94. 
So it is almost the same number.
    And the trend that we see in the last couple of decades, 
and especially the last decade, is that within the total body 
of deportations, the share of the removals has increased 
sharply. It is now about three-quarters.
    Mr. Conyers. Thank you, Mr. Chairman.
    Mr. Gowdy [presiding]. I thank the gentleman from Michigan.
    Before we go to the gentleman from Texas, the gentleman 
from Virginia sought recognition.
    Mr. Forbes. Mr. Chairman, I think the memo that the Ranking 
Member asks speaks for itself pretty much and I am sure he 
would want it made a part of the record.
    So, without objection, I hope we will admit that memo as 
part of the record and then I think everyone can read it for 
themselves.
    Mr. Gowdy. Without objection.
    [The information referred to follows:]
    
                __________
                
    Mr. Gowdy. I thank the gentleman from Virginia.
    The Chair now recognizes the past Chairman of the Judiciary 
Committee, the gentlemen from Texas, Mr. Smith.
    Mr. Smith of Texas. Thank you, Mr. Chairman.
    Sheriff, let me direct my first comment and question to you 
and that is thank you for what you are doing in your good work 
in protecting the lives and property of the residents of the 
county you represent. And I hope they appreciate that too.
    You mentioned in your testimony that we are not even using 
the facilities we have now to detain dangerous individuals. In 
fact, there are I think 10,000 beds that are going unused right 
now. And yet you combine that with this Administration's 
decision to release thousands of dangerous illegal immigrants 
who have been charged with such crimes as manslaughter and 
armed robbery. I have no idea why the Administration wants to 
do this to the American people.
    But I would like to ask you what solutions you would 
propose so that we can stop this kind of policy that does 
destroy lives and property, all of which could be prevented.
    Sheriff Babeu. First, Congressman Smith, through the Chair, 
it is outrageous what has been allowed to happen. And if I had 
a mass jailbreak in my county and let out hundreds, if not 
thousands, of violent criminals, many of them, I would be 
arrested. And this has to stop. We saw----
    Mr. Smith of Texas. In effect, the Administration has 
ordered the largest jailbreak in American history.
    Sheriff Babeu. The largest jailbreak in American history 
has occurred right under our noses. And nobody is talking about 
it.
    The information, I demanded this information, even spoke to 
Senator McCain. He said, Sheriff, Sheriff, I promise you I am 
going to get you those names.
    Well, I am still waiting for the names of those criminals, 
and we will never get it. We will never get these names. And 
the reason why is because we will then connect 2,228 criminals 
to new crimes that have been committed against our citizens all 
across this country. And who should be held responsible and 
answer to these victims except this Administration and those 
people who have knowingly released and intended for this harm 
to take place.
    Here is one of these cases. This illegal that Ms. Vaughan 
spoke about, Altamirano, who is 29, from Mexico, it wasn't just 
robbery that he pled guilty to. He kidnapped a woman for over a 
week and sexually assaulted her, according to the victim. We 
are in America;you believe the victims.
    This guy executed this 21-year-old young man who worked as 
a store clerk in a QuikTrip convenience store and shot him, 
murdered him over a back of cigarettes.
    And ICE won't even answer to--and all we are hearing is 
excuses in how this guy was released. And we are outraged in 
our State. And this just underscores the fact of what is going 
on, that these people aren't held accountable, serious, violent 
offenders.
    Mr. Smith of Texas. There is absolutely no excuse for this 
Administration to perpetuate those policies that result in 
American lives being lost or property damaged or injuries that 
have occurred. I couldn't agree with you more on that.
    Professor Ting, I just wanted to thank you for your 
testimony. I don't have a question. But I want to point out 
that Chairman Goodlatte, in his opening statement, emphasized 
what you also said and that is that apprehensions along the 
border no longer necessarily result in individuals being sent 
home. Oftentimes it is a golden ticket to come into the country 
and establish legal residence. And that is largely because of 
people gaming the asylum laws or largely because of the 
Administration not enforcing the asylum laws, again a travesty 
that results in basically ignoring and undermining current 
immigration law.
    Ms. Vaughan, let me go to you for my next question. This is 
quite amazing. Under this Administration, we have seen illegal 
border crossings go up. We have seen deportations go down. We 
have a million people in the country here illegally who have 
been ordered removed who still are in this country. You wonder 
how bad it has to get before this Administration decides to 
enforce current immigration laws.
    Now, you have done a lot of research on those individuals 
who have been either charged with or convicted of serious 
crimes and a lot of research on the recidivism rate. Would you 
go into more detail about how many of these individuals were 
released? How many have committed additional crimes? And we 
might make the point that the recidivism rate is over a year or 
two. Long term, a lot more will commit additional crimes, all 
of which would have been avoidable had this Administration done 
what it should have done and that is send a lot of these 
individuals home.
    But would you elaborate on some of your research in that 
regard?
    Ms. Vaughan. Sure. I would be happy to. What we know from 
the 36,000 convicted criminal aliens who were released in 2013 
is 16 percent of them were subsequently re-arrested by local 
law enforcement agencies, 16 percent of them. And only a 
portion of those were taken back into custody by ICE.
    This Committee has also commissioned research based on 
actual records that found a very high recidivism rate. I 
believe it was something like 56,000 new crimes committed by 
criminal aliens who were released instead of removed under the 
Secure Communities Program.
    What I am told by ICE officials and have been told on a 
number of occasions what they believe from their internal data 
is there is a recidivism rate of about 50 percent of criminal 
aliens who are released by ICE or released----
    Mr. Smith of Texas. Fifty percent? Half will commit 
additional crimes against innocent Americans?
    Ms. Vaughan. Right. And that is both criminal aliens 
released by ICE and also those criminal aliens who are released 
by local law enforcement agencies that want to obstruct 
immigration enforcement through not honoring detainers--50 
percent is too high a risk to the public.
    Mr. Smith of Texas. All of which could be avoided.
    Ms. Vaughan. Right.
    Mr. Smith of Texas. Thank you all for your testimony.
    Thank you, Mr. Chairman.
    Mr. Gowdy. Thank the gentleman from Texas.
    The Chair now recognizes the gentlelady from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. I thank the gentleman and I thank the 
Chairman. And as I started out in my remarks, I really do hope 
that this can be a constructive process where we truly do look 
to find solutions.
    I would offer to say that not one of us--I will count 
Republicans and Democrats--would hold to the tragic and 
horrible killing of the constituent in your jurisdiction, 
Sheriff, none of us. And we would want the individual 
immediately brought to justice.
    I take issue, however, to condemn public servants, ICE 
officers, of whom I know that you have probably had deep and 
abiding professional relationship with, as being at fault for 
any of these charges that are being made here today.
    I do want to say that not funding the Department of 
Homeland Security for this year and beyond is certainly not the 
answer.
    We need to ensure that we are paying Border Patrol agents, 
PSOs, ICE officers, and the array of individuals who are 
responsible in many different ways of securing the border.
    What I do want to raise a question in order to try to 
understand a little better, you had an opportunity at an event 
dealing with an election of a Governor in the State of Arizona 
to announce that a bus or buses of unaccompanied children would 
be showing up in Oracle, Arizona. And the public pronouncement, 
which I would offer to say that the responsibilities of law 
enforcement officers are to be protect and serve, no matter who 
comes into the territory, as long as they are innocent, 
provoked a despicable scene of individuals who were anti-
immigration and then, of course, those who were supporting it.
    It so happens as it has been recorded--and I ask unanimous 
consent to put an article, dated July 15, 2014, in the record 
from the Republic.
    I ask unanimous consent, Mr. Chairman.
    Mr. Gowdy. Without objection.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Ms. Jackson Lee. It was reported that as these bus loads of 
children came, it was determined that these children were 
youngsters going to a YMCA Triangle Y Camp.
    Is that the case, Sheriff?
    Sheriff Babeu. Through the Chair, no, that is not the case. 
A person who was running for Congress made a scene and believed 
that that was the case. In reality, there was, in secrecy, 40 
to 50 Central American juveniles who were, in fact, delivered 
to the Sycamore Canyon Ranch.
    Ms. Jackson Lee. But do you think it is appropriate, no 
matter whether those kids came at this time--are you denying 
this, that you did not say that there was not a scene with 
these youngsters? Did you provide protection for these 
youngsters going to the YMCA camp?
    Sheriff Babeu. Absolutely. And through the Chair and 
Congresswoman----
    Ms. Jackson Lee. Would you send us an article that shows 
that you provided protection to those youngsters? Because it is 
indicated that your expression provoked a scene for youngsters 
who were, in fact, going to a YMCA camp.
    If you have the ability to rebut that, I would appreciate 
it if you would submit it into the record. I am going to go on 
to another question.
    I would like to ask unanimous consent to put into the 
record ``The ACLU Obtains Judgment Against Arizona Sheriff on 
Officer's use of the S.B. 1070, 'Show Me Your Papers' Law.''
    I ask show unanimous consent to put this into the record.
    Mr. Gowdy. Without objection.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________
    Ms. Jackson Lee. This indicates that an individual by the 
name of Ms. Cortes, who was a victim of domestic violence, 
which this Committee takes very seriously, was stopped by some 
of your officers and, rather than allowing her to show her 
papers, was immediately put into detention, I guess along with 
her children.
    Do you have knowledge of that?
    Sheriff Babeu. That is not true. She wasn't put in 
detention with her children.
    Ms. Jackson Lee. Then why would you obtain a judgment? Let 
me say this--did you,was the judgment obtained against the----
    Sheriff Babeu. Through the insurance carrier for $25,000 to 
settle a frivolous lawsuit, they did, yes.
    Ms. Jackson Lee. Let me thank you for that and move on to 
the next question.
    Let me ask, Dr. Rosenblum, on this question of laws like 
S.B. 1070 and juxtapose it against the fair Executive action 
that the President has authority to do but the Executive 
actions are prioritizing enforcement and deal with DACA family 
members, as opposed to a law like S.B. 1070, which, in the 
instance, you may not have heard me, it deals with an 
individual who was stopped and papers were not asked for, and 
they were detained. And they were a victim of domestic 
violence.
    Mr. Gowdy. You may answer the question.
    Mr. Rosenblum. Thank you. Certainly my understanding is 
that one of the intentions of the President's Executive actions 
announced in 2014 would be to focus enforcement more on 
criminals and recent border crossers and less on families and 
people who have children in the U.S.
    And the intention of S.B. 1070, I think, is more focused on 
identifying potentially deportable noncitizens, you know, by 
authorizing State and local law enforcement to query them about 
their documents.
    Ms. Jackson Lee. Does it have a successful impact----
    Mr. Gowdy. The gentlelady's time has expired.
    The Chair would now recognize the gentleman from Ohio, Mr. 
Chabot.
    Mr. Chabot. Thank you, Mr. Chairman.
    Sheriff, would you pronounce your name again?
    Sheriff Babeu. Babeu.
    Mr. Chabot. Babeu?
    Mr. Babeu. Yes, sir.
    Mr. Chabot. Okay. I will probably just call you 
``sheriff.''
    First of all, would you like any additional time to clear 
up or clarify anything that my esteemed colleague on the other 
side of the aisle may have brought up?
    Sheriff Babeu. Yes, sir. Through the Chair, I thank you, 
Congressman. This case with the suspect who was stopped for a 
violation of traffic enforcement, there was actually, we had 
custody 29 minutes, including the time to transport to our U.S. 
Border Patrol.
    Now, the call--Senate Bill 1070 says, required by the 
Supreme Court, we shall--we don't have an option--law 
enforcement shall, if we have a reasonable suspicion somebody 
is in the country illegally, inquire and determine, and we 
called ICE and Border Patrol. They said, Bring that person to 
us. We did. And including less than a half an hour, that person 
was held for 5 days by the Border Patrol, not by us. There was 
no children, as the Congresswoman represented in her statement. 
And that was, was that entire case.
    The case, talk to Carl Shipman, the director, with the case 
of close to 50 unaccompanied juveniles who were apprehended in 
your State of Texas and were flown to my State of Arizona. I 
have a problem with that.
    And the fact that you had Jeh Johnson testify before this 
Congress who said there would be transparency, that we would--
under oath, he said that he has directed and required all of 
his administrators to call and coordinate with State, local and 
county officials when they send any of these unaccompanied 
juveniles to their jurisdiction.
    That never happened. It was done in secrecy. When this was 
learned and this information was put out, now it is somehow my 
fault that the Administration has done this under secrecy? I 
have a problem with that. And so that is what happened in 
reality.
    Mr. Chabot. Thank you.
    Let me go to another line of questioning here briefly, 
Sheriff.
    Could you discuss the morale relative to the men and woman 
that serve under you when you have devoted your time to law 
enforcement, protecting the public and enforcing the law, and 
then you see the very people that you have picked up under 
appropriate circumstances time and time again back out there, 
especially when a fairly considerable number of those 
apparently are criminals who 50 percent of the time are 
committing more crimes against American citizens, what does 
that do to the men and women under you and having to do that on 
an ongoing basis?
    Sheriff Babeu. Congressman, through the Chair, that this 
appears to be an endless battle. And you rely on us to enforce 
the law. You write the laws. We carry them out. We enforce 
them. When it comes to immigration, it appears there is no law 
because there are no consequences largely--as pointed out, what 
has gone on in my county.
    And so this acts like a neon flashing sign on the border 
that if you get to the border, you are home free. And that is, 
in effect, what has happened.
    The morale, because we are professionals, is always 
professional. We maintain a high level of morale just in the 
fact that we continue the fight. And, in fact, if the Federal 
Government won't do the job, we will gladly step up.
    Yet what we ask for is for the Federal Government and for 
this Congress to carry out and make sure the laws are enforced 
and empower your Federal law enforcement officers to actually 
be able to do their job that they are trained to do and sworn 
to protect our country.
    Mr. Chabot. Thank you very much. I have got a little over a 
minute left. And I would like to divide this between the 
professor and Ms. Vaughan here.
    Both of you had mentioned about the effect that illegal 
immigration and particularly this Administration's lack of 
seriousness about dealing with it, but really it has happened 
over previous Administrations as well, what effect that has had 
on American jobs, on the fact that wages have been stagnant for 
such a long time?
    Even though, Professor, as you indicated, the stock market 
has been going up, wages really haven't. My colleagues on the 
other side like to talk about the middle class. Well, those are 
the folks that are being hurt, I think, most by illegal 
immigration and the competition there.
    Could you each address--now I have got about 30 seconds, so 
15 each.
    Mr. Ting. I think it is a national scandal, this rising 
inequality in America and people's willingness to ignore the 
role of immigration in that phenomenon. You know, the 
Administration says jobs are going up every month. They are 
taking a victory lap on that. But wages are not going up.
    Why aren't wages going up? Market theory says wages should 
go up if demand for workers increases. And people are just 
ignoring the role of immigration.
    Indeed, the President bringing 5 million illegal immigrants 
into the legal workforce in 2015, giving them work 
authorization and saying, Go out and compete with American 
workers for jobs. And it is actually illegal to discriminate 
against these work-authorized aliens in favor of American 
workers.
    So, you know, I think we have to recognize there are 
victims here, and the victims are American workers trying to 
get by on part-time jobs and having to compete with increasing 
numbers of work-authorized illegal immigrants to the United 
States.
    Mr. Chabot. Thank you.
    Ms. Vaughan, quickly.
    Ms. Vaughan. There is not an economist in this country who 
will tell you that we have a shortage of unskilled labor. And 
this is what is causing the stagnant wages. And it is also that 
people are--you can't just look at the unemployment rate. You 
need to also look at the underemployment rate out there and the 
fact that people are forced into jobs that they don't want.
    Just 2 days ago, I spoke with a man who told me that he had 
worked for 15 years in masonry in Rhode Island and can no 
longer get a job. His boss had to close the company because 
they have been completely displaced by companies that hire 
illegal workers, and he had to get a job washing cars. That is 
a job. He is not unemployed. But it is not what he was trained 
for. It is not what he has skills in. And these are real 
stories of real Americans who are being harmed by the 
Administration's refusal to enforce the law.
    Mr. Chabot. Thank you.
    Thank you, Mr. Chairman.
    Mr. Gowdy. The gentleman's time has expired.
    The Chair will now recognize the gentleman from Tennessee, 
Mr. Cohen.
    Mr. Cohen. Thank you, Mr. Gowdy.
    Professor Ting, you talked about income inequality and 
correlated it to this immigration situation.
    Don't you think income inequality has a lot more to do with 
maybe the tax structure we have in this country, the lack of a 
minimum wage, lack of public spending to create jobs on 
infrastructure? Isn't that more important?
    Mr. Ting. Well, I am all for tax reform. I also teach tax. 
I am all for closing the carried interest loophole. I am all 
for narrowing the gap between income from capital and income 
from labor.
    Mr. Cohen. You don't think hedge funds guys up in Manhattan 
should pay the tiny taxes they do on what they do on--I am 
being facetious. I agree with you.
    Mr. Ting. Well, yeah, I think it is outrageous that Warren 
Buffett pays a lower marginal tax rate than his secretary.
    Mr. Cohen. Thank you.
    Sheriff Babeu, first of all, I want to thank you for your 
service to our country, serving in Iraq and all. You have an 
amazing story. And there are so many issues we could get into 
that I find of interest.
    In your testimony, you talk about drugs being brought 
through your county and it is one of the major--is that mostly 
marijuana?
    Sheriff Babeu. Through the Chair, Congressman, largely 
marijuana is a cash crop. But there is methamphetamine. The 
largest importer into the United States is Mexico for meth. 
Cocaine, heroin, black tar----
    Mr. Cohen. But marijuana is the number one drug that comes 
through there.
    Sheriff Babeu. In terms of size and volume, yes.
    Mr. Cohen. Do you think, in your experience, if possibly 
this country had a different policy or laws concerning 
marijuana, that we would have less likely cartels shipping 
marijuana into our country if we had either decriminalized it 
or something like that?
    Sheriff Babeu. No. And every Arizona sheriff, the majority 
of us are Democrats, have voted against even the medicinal 
marijuana, nevermind the proposed recreational use of 
marijuana. And we do not believe that by legalizing or allowing 
some recreational use will somehow collapse the cartels. It is 
about a criminal syndicate that is driven by money and power. 
And they will do anything----
    Mr. Cohen. But if they are growing marijuana legally in 
Washington and Colorado, they don't need the cartels to give 
them marijuana. So if you had it to where some way it could be, 
that would take away their market, wouldn't it?
    Sheriff Babeu. No. It is different. If you want to talk 
about the taxation and the incentive there for the Government. 
But in terms of the street value, it is far cheaper to buy 
marijuana from Mexico. And it is very different, when you look 
at the strains that the medicinal marijuana provides for 
certain illnesses, from glaucoma to pain and other things, it 
is all synthetic in many regards; it is strains and far more 
powerful.
    So the relative inexpense of marijuana that is coming in 
and the cash crop, they even build in 10 to 20 percent loss of 
apprehensions from law enforcement into there.
    Mr. Cohen. You are against medical marijuana, like children 
that need Charlotte's Web or they call it--I think, Rachels in 
Israel--where they are combining this non----
    Sheriff Babeu. Again, in Arizona, it is the law. So we 
enforce the law. I don't have a problem with the fact that 
there is medical marijuana in Arizona. And I have spoken out 
publicly about this.
    Mr. Cohen. Let me ask you this----
    Sheriff Babeu. It is the abuse of it. Because we have seen 
people drive vehicles, show up at work, and operate equipment, 
and so forth. That is the concerns that we have had.
    Mr. Cohen. Thank you, sir.
    You were on some radio show that is Political Cesspool, 
which is appropriately named, I think, having read about it.
    You regret having done that, do you not?
    Sheriff Babeu. Through the Chair, that was probably 4 years 
ago. We had no idea of their background and that they had made 
statements that appeared bigoted or racist. I don't associate 
with that. And we immediately disavowed any of their beliefs or 
past statements. That has nothing to do with me.
    Mr. Cohen. Good. Good. And you have become, I guess, more 
careful about what shows you are on?
    Sheriff Babeu. We have been on probably as many as you, if 
not more. And so I have a staff member that vets everybody. And 
somehow, at that point, that slipped through. And we 
immediately ensured the public knew that, in fact, we reject 
those people if--anybody, whoever they are--have those beliefs.
    Mr. Cohen. I thank you for that. And I know people can make 
mistakes. As a matter of fact, I think one of our colleagues, 
who I respect greatly, went on that show and didn't know 
either. So people can make mistakes. And I appreciate your 
making clear that that was a mistake.
    Because the fact is--they are out of my district 
apparently--but some of the stuff they stand for is 
reprehensible. And I thank you for your honesty.
    I yield back the balance of my time.
    Mr. Gowdy. I thank the gentleman from Tennessee.
    The Chair will now recognize the gentleman from Virginia, 
Mr. Forbes.
    Mr. Forbes. Mr. Chairman, I thank you for this hearing 
because it is one of those few hearing where people get what 
they ask for. We came in, we heard our friends on the other 
side of the aisle saying, we just want the facts, we just want 
the facts.
    And, Sheriff, thank you for giving them to them.
    We have heard one newspaper article after another newspaper 
article or story recited by our friends on the other side of 
the aisle. But thank you for being the eyewitness who can come 
here and refute them all. And I know a lot of times they didn't 
give you an opportunity to respond to that. But we thank you 
for doing that.
    The one thing I will agree that I heard in the opening 
comments is it is, indeed, unfortunate that the President would 
indicate that he would be willing to shut down the Department 
of Homeland Security unless the act that funds it allows him to 
take actions many constitutional experts believe to be the most 
flagrant attack on the Constitution we have seen in years, an 
attack that will impact not just our time but the lifetime of 
our children.
    But I am also not fearful of the false choice our friends 
on the other side of the aisle offer, that we must turn our 
eyes, ignore the unconstitutional act of this President if we 
want to fund the Department of Homeland Security.
    The oath we took as Members of the Congress was not, as 
much as we love it, to defend Arizona or California or 
Virginia; it was to defend the Constitution of the United 
States. And when this President or any President attacks that 
Constitution, this Committee, this Congress has the same duty 
under that oath to protect and defend against those attacks as 
it does to protect and defend against the attacks of some 
wrongdoers secretly entering across our border to attack that 
same Constitution or the citizens it protects.
    Now, professor Ting, I would like to ask you--the President 
admitted in 2011 and numerous times thereafter that with 
respect to the notion that I can just suspend deportations 
through Executive order, that is just not the case because 
there are laws on the books that Congress has passed.
    He went on to say the executive branch's job is to enforce 
and implement those jobs. There are enough laws on the books by 
Congress that are very clear in terms of how we have to enforce 
our immigration system, that for me to simply through Executive 
order ignore those congressional mandates would not conform 
with my appropriate role as President.
    My question to you is this: Isn't that exactly what DHS has 
been doing, suspending the deportation process and creating an 
enforcement-free zone for millions of unlawful and criminal 
aliens? And do you think the President is violating his duty 
under the Constitution to faithfully execute those laws?
    Mr. Ting. Yes. I think I have written on that subject and I 
have said that I think the Executive action is unconstitutional 
and a usurpation of congressional powers. It is legislation by 
the executive.
    And also, you know, Chairman Goodlatte has put into the 
record many of the President's earlier statements about the 
limitations on his authority, which he subsequently ignored, 
which I think calls into question whether there are any other 
limitations.
    You know, he says his own Office of Legal Counsel opinion 
says, Well, you can't extend this to parents of DACA 
beneficiaries. Well, is that going to hold up? You know, what 
is the next step? If this Executive order is sustained, you 
know, what is the next step? And I think you may see Executive 
orders reaching other people that the President has said, Well, 
we can't extend it to them. Well, now that I think about it, 
why not? And extend it further.
    There is no limitation. And that feeds into the cost-
benefit analysis that people are thinking about, whether to 
come to the United States illegally or not. You know, people 
are saying, Well, you know, you just get yourself in there and 
then you wait for the next piece of Executive action to come 
along and provide you with work authorization.
    I think it is feeding the process. If you want more illegal 
immigration, you raise the benefits and lower the costs. If you 
want----
    Mr. Forbes. Ms. Vaughan, let me ask you what Mr. Ting has 
said also--you heard how Dr. Rosenblum has talked about this 
great enforcement that this Administration has done on our 
immigration laws. Is he right on that?
    Ms. Vaughan. No, he is not. If you look at the total body 
of statistics--and the best ones to look at are ICE's own 
internal metrics--you see that not only are interior 
deportations down, total deportations down, including all three 
agencies, but also even the number of criminal aliens being 
removed from the interior every year has plummeted.
    They keep the records for their own use internally. And 
that is the best measure of what is happening.
    And I think the most important metric is the size of the 
illegal population residing in the United States, which stopped 
declining after Congress gave resources to Federal agencies to 
use on enforcement, we made progress on the size of the illegal 
population. But that has stopped now.
    Mr. Forbes. Thank you for letting us get these facts put on 
the record.
    And with that, I yield back.
    Mr. Gowdy. I thank the gentleman from Virginia.
    And the Chair will now recognize the gentleman from 
Georgia, Mr. Johnson.
    Mr. Johnson. Thank you.
    Professor Ting, you are a Republican, are you not?
    Mr. Ting. I am a registered Republican, although I have 
supported Democrats, including the President. It is public 
record. I was kicked out of the Republican Party in Delaware as 
a result of having taken that stance.
    And I am sorry I didn't say in the tax question that I 
think the high watermark of tax reform was in 1986 when the 
Democrats and the Republicans agreed on setting the capital 
gains and the ordinary income rate at 28 percent.
    Mr. Johnson. Thank you. You are at this point active in 
Republican Party politics, are you not?
    Mr. Ting. That is not true. I am not active in Republican 
Party politics since I was basically pushed out of the Delaware 
Republican Party. Indeed, I have relocated. I now live in a 
different State. I live in Pennsylvania, not in Delaware 
anymore.
    Mr. Johnson. But certainly you are not Democratically 
affiliated?
    Mr. Ting. I am a registered Republican. But I think of 
myself as pretty darned independent, as indicated by my support 
of tax reform. But I also think the Republicans are right on 
immigration. And, you know, really my question is, who in 
Congress speaks for America workers?
    Mr. Chabot. Mr. Chairman, I have a point of order. I don't 
think it's ever been the practice of this Committee to be 
asking witnesses what their political----
    Mr. Johnson. Could I get my time stopped if----
    Mr. Chabot. Yeah, I don't have any problem with that. I 
mean, I didn't ask Mr. Rosenblum any questions, but I certainly 
didn't ask him his political affiliation and----
    Mr. Gowdy. The gentleman from Ohio's point is well taken. 
Although Professor Ting is more than defending himself. And he 
may actually go back to his support for this President at some 
point.
    So, with that, I am sure Mr. Johnson is going to leave 
politics and get to immigration at some point.
    Mr. Johnson. I am but after I make sure I answer my pre-
questions. In other words, I am building up to something. And I 
would appreciate giving me the discretion to do that without 
further interruption.
    Mr. Gowdy. You have the discretion to ask. And Professor 
Ting can decide whether or not he wants to answer.
    Mr. Johnson. And I have heard enough from Professor Ting at 
this point. I would love to talk with you further.
    I would ask the same question of Ms. Vaughan, you are a 
Republican also, are you not?
    Ms. Vaughan. I am a registered Republican, yes.
    Mr. Johnson. Okay. Sheriff Babeu, you too, correct?
    Sheriff Babeu. I became the first Republican sheriff of my 
county.
    Mr. Johnson. All right. Okay.
    Now, Sheriff Babeu, you know, you are a strict opponent of 
immigration reform, comprehensive immigration reform, correct?
    Sheriff Babeu. Through the Chair, comprehensive immigration 
reform, as I understand it, you may be referring to----
    Mr. Johnson. Well, let me ask you this question--you are 
opposed to immigration of persons south of the border coming to 
the U.S.?
    Sheriff Babeu. No, that is absolutely not true. I support 
legal immigration, not illegal immigration.
    Mr. Johnson. Let me ask you this question--you realize that 
we have been struggling with comprehensive immigration reform 
for many years in this country, and it is politics that keeps 
us from doing it, correct?
    Sheriff Babeu. No. I think that----
    Mr. Johnson. You don't think it is politics----
    Sheriff Babeu. I think that it is enforcement of the law. 
You may be dealing----
    Mr. Johnson. We are talking about changing the law so that 
we can have comprehensive immigration reform. But you are 
opposed to us doing that, correct?
    Sheriff Babeu. The process and I will----
    Mr. Johnson. Are you opposed to us considering 
comprehensive immigration----
    Sheriff Babeu. In the order that you are doing it, yes. The 
border needs to be secured first, and then you can address that 
issue after.
    Mr. Johnson. Okay. All right. And that is a Republican 
position, a Republican Party position. And you are a 
Republican, and I understand that.
    Let me ask you this question--do you need automatic weapons 
to help you with border control?
    Sheriff Babeu. We have in Arizona--through the Chair----
    Mr. Johnson. If you could say yes or no, and then you could 
explain.
    Sheriff Babeu [continuing]. Semi-automatic weapons.
    Mr. Johnson. Do you need automatic weapons?
    Sheriff Babeu. We don't have to have automatic weapons, no.
    Mr. Johnson. Do you need mine-resistant ambush-protected 
vehicles to help you patrol the border?
    Sheriff Babeu. Not for the border, but for our SWAT team, 
yes.
    Mr. Johnson. Thank you. Do you need silencers in order to 
help you patrol the border?
    Sheriff Babeu. For our SWAT team, that is a tactical move, 
but it is not necessarily targeted for----
    Mr. Johnson. Why does your SWAT team need ambush, mine-
resistant ambush protected vehicles?
    Sheriff Babeu. Because, sir, through the Chair, our county 
doesn't have the money to buy a SWAT vehicle.
    Mr. Johnson. Why do you need it in order to enforce border 
security? Why do you need a mine-resistant ambush----
    Sheriff Babeu. We don't. And this is where----
    Mr. Johnson. Thank you.
    Mr. Gowdy. No, sir--Sheriff, you may answer the question.
    You may not ask a question and then not allow the witness 
to answer it.
    Mr. Johnson. I wanted a yes or no answer. He answered the 
question. And I am ready to move on.
    Mr. Gowdy. Sheriff, have you answered the question as 
completely as you would like to?
    Mr. Johnson. Mr. Chairman, I am ready to move on.
    Mr. Gowdy. The gentleman is not recognized.
    Sheriff, have you answered the question as completely as 
you would like to?
    Sheriff Babeu. And this is where us and----
    Mr. Johnson. Mr. Chairman, regular order, please. Regular 
order.
    Sheriff Babeu. In law enforcement--we have 420,000 
residents of my county. And we are the SWAT team.
    Mr. Johnson. Point of information, Mr. Chairman.
    Sheriff Babeu. All 13 law enforcement agencies. And for 
high-risk warrants,barricade situations----
    Mr. Johnson. Mr. Chairman----
    Sheriff Babeu [continuing]. Almost never have we used----
    Mr. Johnson. Mr. Chairman----
    Sheriff Babeu [continuing]. An armored vehicle for 
anything----
    Mr. Johnson. Point of order, Mr. Chairman.
    Sheriff Babeu [continuing]. Illegal immigration, Mr. 
Chairman.
    Mr. Johnson. Point of order, Mr. Chairman.
    Mr. Gowdy. Thank you, Sheriff.
    The gentleman is out of time. If you have another 
question----
    Mr. Johnson. I have a point of order that I would like to 
state.
    Mr. Gowdy. State your point of order.
    Mr. Johnson. Is it within the rules of this Committee that 
the Chairman can interrupt a legislator asking a question of a 
witness----
    Mr. Gowdy. If that legislator is not allowing the witness 
to answer questions, you are daggone right he can, yes, sir.
    The gentleman is out of time.
    Mr. Johnson. I take exception to the Chairman--abuse of 
authority as to----
    Mr. Gowdy. The Chair will now recognize the gentleman from 
Iowa, Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    I want to thank the witnesses, as I heard earlier, for 
their direct answers that we did receive and those anchored in 
fact.
    I wanted to point out first to Sheriff Babeu, I have been 
to the top of those Lookout Mountains, those spotter locations. 
I have done one-strut landings with a Blackhawk up on top. And 
knowing that they have scattered down the mountain, it is kind 
of hard to catch them. I am glad you caught some. And I would 
like to see a lot more of that, by the way. And I would like to 
see you have all the resources necessary. And I regret that 
S.B. 1070 ended up in the court the way it did. I was there to 
witness that.
    I wanted to just put a statement out here and judge your 
reaction. I was listening to Donald Trump in Iowa a week ago, 
and he said this, ``We have to build a fence. And it has got to 
be a beauty. And who can build better than me?''
    Your reaction to that, Sheriff.
    Sheriff Babeu. Well, you are speaking to a retired Army 
officer, combat engineer. And I helped build this 14-foot 
corrugated steel no-climb fence that was originally sponsored 
by Congressman Hunter. In fact, a credit to President Clinton, 
signed that bill and authorized a double barrier fence, not a 
triple barrier.
    We don't need, as Mr. Trump and others, an entire, we are 
not building the great wall of Mexico. That there are tactical 
areas that you interlock these manmade barricades or obstacles 
and you interlock them with natural terrain features. We know 
how to do that well. And so there are 700 miles of the 2,000 
miles of border that would need this barrier.
    Mr. King. Could we agree that we should just simply build 
that fence until they stop going around the end?
    Sheriff Babeu. Taking a line from Senator McCain, build the 
dang fence.
    Mr. King. Thank you, Sheriff.
    Also I wanted to turn to Ms. Vaughan, and I am listening to 
the number this keeps coming up, 11 million, 11 million, 11 
million. When I came here 12 years ago, it was 12 million. Now 
it is 11 million. What has happened to that million that 
disappeared while there were millions pouring over the border?
    Ms. Vaughan. Well, the numbers went down from 2007 until 
about 2009. And we think that was a result of several things. 
First of all, increased resources that Congress gave to ICE to 
boost enforcement of laws.
    Secondly, State and local governments passing laws within 
their jurisdiction to support Federal immigration enforcement 
efforts.
    And also the economy was not great and the lure of jobs was 
not as bright as it had been.
    But the numbers stopped falling along about 2010 and have 
remained stagnant since then, even as more and more----
    Mr. King. Thank you. Also I wanted to point out a narrative 
and go back to Sheriff Babeu, and that is that sometime last 
summer, late July, I was standing on the banks of the Rio 
Grande River at Roma, Texas. And there with a couple of Border 
Patrol agents and two local city police--they were there most 
of the time, came and went a little bit, having a conversation 
with them--we watched as two coyotes inflated a raft on the 
other side of the river, loaded a pregnant lady in it, ran her 
across the river, pulled their raft up against the shoreline. 
And they helped the lady out, handed her her two bags of her 
possessions. The coyote that helped her out got back in the 
raft. The two of them went back to Mexico. The level of 
animation among the officers there was a little less than I 
would see if they were writing a speeding ticket in Iowa.
    Is that a typical scenario? And is it likely she applied 
for asylum? That was July, so I presume the baby is born by 
now, an American citizen. Is that a typical scenario?
    Sheriff Babeu. Not in our county. We are not actually a 
border county. But the three counties south of us, funnel shape 
the traffic up through Pinal County. But we don't see a lot of, 
in our county, pregnant illegals.
    Mr. King. Aside from her condition, which is just the 
observed condition, is it, is it your understanding that it is 
typical when someone gets across the border, that they apply 
then for asylum and that the only people that we really send 
back are those that will accept the proposal of a voluntary 
return on the spot or in a short hearing?
    Sheriff Babeu. Yes.
    Mr. King. And so we are the welcome mat. And the point of 
securing the border if we are going to be there to be the 
welcome mat is significantly diminished by the policies of this 
Administration, would you agree?
    Sheriff Babeu. Yes, sir.
    Mr. King. Thank you. Then I will turn to Professor Ting. 
And I am looking at a number here, 92,898,000 Americans--almost 
93 million Americans--simply not to the workforce, a 30 percent 
of the population, 29 point and change, not in the workforce.
    And I am listening to the testimony here and, of course, I 
have been thinking of this for a while--it seems to me that we 
need a demographer to project to us what America looks like if 
this continues.
    But you have given it so much thoughtful consideration. I 
would ask you if you could tell us what you think America looks 
like if the Constitution and the rule of law usurped by the 
executive branch and the door is open for an endless supply of 
immigration, could you give me a picture of what America looks 
like?
    Mr. Ting. Well, I worry about that picture of the future. 
You know, what is special about America is our Constitution and 
our deliberative process of government, which includes the role 
for the Congress, as well as the executive branch. And I think 
that is being threatened by kind of imperial Executive orders. 
If this Executive order stands, where is the limit?
    I think we do need to think more about growth of 
immigration. Both my parents were immigrants. I love 
immigrants, right? We all should respect immigrants because we 
are all descended from people that came here from somewhere 
else. And we are told that includes Native Americans too.
    But, you know, how much--that is the question. And it is a 
hard question. Given the fact that we respect immigrants and 
admire immigrants, how many are we going to take every year? 
And we have to kind of strike the balance.
    I also just want to say if we do nothing, we are stuck with 
the most generous legal immigration system in the world, bar 
none. We admit more legal immigrants with a clear path to full 
citizenship every year than all the rest of the nations of the 
world combined. That is if we do nothing. That is our legal 
immigration system. And I have testified before Congress and 
said it is a system that is worthy of a nation of immigrants.
    So, you know, we welcome legal immigrants into the United 
States. We are doing our part in America. We benefit from legal 
immigration. But there has to be a limit. And we have to 
enforce that limit. Otherwise, it is not really a limit.
    Mr. Chabot [presiding]. The gentleman's time has expired.
    The gentlelady from California, the former speaker of the 
California, Ms. Bass.
    Ms. Bass. Thank you.
    Mr. Chabot. Glad to see you back here.
    Ms. Bass. Thank you, Mr. Chair.
    Mr. Chabot. Okay. Ms. Bass is recognized. Thank you.
    Ms. Bass. Thank you.
    Thank you for being here today, Mr. Rosenblum. I wanted to 
ask you a couple of questions. But also if you wanted to 
respond to some of the questions that were asked previously, 
you know, you could take the opportunity to do that.
    But Professor Ting, where did Native Americans come from? 
You said Native Americans were immigrants. I was just 
wondering.
    Mr. Ting. I don't know. You know, I read that the ancestors 
of Native Americans migrated across the land bridge from Asia 
to the Americas.
    Ms. Bass. Okay. Thank you. I was just wondering. I would 
actually never heard that.
    Mr. Ting. I don't claim any expertise other than having 
read that that is the case.
    Ms. Bass. Thank you.
    Mr. Rosenblum, I believe that you mentioned that most of 
the people that are coming now who are seeking asylum are from 
Central America.
    And I wanted to know if you would talk about that. That is 
an issue and a population that impacts my city and also my 
district. A lot of Central Americans are there.
    And my understanding is that many or most of them are 
coming not only from what you said but what I see at home are 
coming because of the specific conditions in El Salvador and 
Honduras, where the crime rate is so bad.
    I wanted to know, based on your analysis, if you thought 
that DACA was actually a magnet for their immigration.
    And also it is my understanding, I think another witness 
has said that most of the unaccompanied children and families 
who were apprehended have not been deported. And I was 
wondering if you could explain your thoughts as to why that was 
the case.
    Mr. Rosenblum. Thank you for those questions.
    So let me first say something about the unaccompanied 
children arriving from Central America. We have heard the 
argument made that DACA is a magnet that is attracting those 
children. But, in fact, I mean, there are two strong pieces of 
evidence that that is not correct. One is that the surge of 
Central Americans began in January of 2012, which was 6 months 
before DACA was announced. So they couldn't have been coming 
because of DACA because they came before DACA.
    But the more important point is that--and this applies also 
to the general discussion we have had about how Professor Ting 
has argued that the President's lax enforcement has been a big 
magnet that is encouraging people to come.
    But what we have seen is that the numbers of Mexican 
arrivals--and this goes to Ms. Vaughan's comments as well--the 
numbers of Mexican arrivals continue to fall. They have fallen 
every year for the last 14 years. And they are at a 40-year 
low. So we have had an 86 percent drop of Mexican arrivals 
since 2000, despite DACA and despite, you know, the other 
Executive actions.
    So what we see instead is that there are very specific 
factors pushing immigration from Central America. And those are 
the violence in large parts of El Salvador and Honduras and 
Guatemala, to a lesser extent, the economic impact.
    And another big factor is that the smuggling networks that 
connect Central America to the United States have adapted their 
behavior and provide sort of door-to-door service that didn't 
used to exist.
    But there is extensive research--and I have quite a few 
citations in my written testimony--by the United Nations, by 
several different humanitarian organizations that work with 
those arriving children, who have conducted interviews and they 
found that 50 percent to, up to two-thirds likely have valid 
humanitarian claims under existing U.S. Law. So, you know, 
those kids are a distinct phenomenon that raise all kinds of 
important questions about how our laws handle a humanitarian 
crisis like that.
    And the most important question being that we don't have 
judicial capacity to quickly process them, which is really what 
the problem is. When they arrive, the reason that they are not 
quickly adjudicated is that they have 2-year waits to go before 
a judge. So that is really where the weakness is in our 
enforcement system is the ability to quickly adjudicate those 
cases.
    But to lump them in as regular unauthorized immigrants 
denies the reality that they are fleeing very specific 
circumstances and arriving under very different conditions. So 
we should look at them and understand what is really going on 
there.
    Ms. Bass. And that certainly has been the complaint in my 
district actually is the backlog.
    But I was wondering also if you could speak to the decline 
in Mexican immigrants coming across the border.
    The other big complaint in my district is the number of 
deportations that have happened under President Obama. People 
in--at least in LA--feel that his number of deportations have 
been very, very high.
    So is that the reason why? Because there is certainly a lot 
of violence in Mexico as well.
    Mr. Rosenblum. Well, we are certainly seeing increased 
enforcement at the border and in the interior when you look at 
the numbers. And there has been this discussion here on the 
panel also that there is catch and release happening at the 
border and a lot of voluntary returns.
    But when you look at the Border Patrol data, that is just 
not true. The Border Patrol historically did voluntary return 
for over 95 percent of the people they apprehended. As recently 
as 2005, it was 80 percent. And now it is under 10 percent. So 
what they are doing is they are putting people on expedited 
removal and reinstatement of removal and increasingly charging 
them in criminal courts. So there is evidence that that has, 
you know, had a real deterrent impact on the Mexican numbers.
    But certainly we have seen that the overall removal numbers 
have gone up. And I am sure that is what people in your 
district are commenting on.
    Ms. Bass. Thank you.
    I yield back my time.
    Mr. Chabot. The gentlelady's time has expired. Thank you.
    The gentleman from Arizona, Mr. Franks, is recognized for 5 
minutes.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Mr. Chairman, let me start out by just quoting something 
that I think is important. You know, we are talking about 
immigration today. And some of the discussions center around 
what some of us believe was the unconstitutional actions of the 
President. But it is important to note that the President might 
have many obligations, but one most paramount obligation is the 
following sworn oath that he made: ``I do solemnly swear that I 
will faithfully execute the Office of President of the United 
States and will to the best of my ability preserve, protect and 
defend the Constitution of the United States.''
    Article I, section 8, clause 4, of the Constitution 
provides that Congress shall have power to ``establish a 
uniform rule of naturalization.''
    The Supreme Court has long found that this provision of the 
Constitution grants Congress the plenary power over immigration 
policy.
    Yet, Mr. Chairman, I believe that the recent Executive 
action by the President on illegal immigration is categorically 
incompatible with the oath that he made when he laid his hands 
on the Lincoln Bible 6 years ago.
    And I obviously am concerned, like many of us, on the 
immigration policy. But a greater concern here is the critical 
nature that this Committee and this President has to maintain 
our oath to the Constitution. And I believe that the 
President's actions fundamentally abrogate his oath. And I 
believe it is important for us to consider that. And I wanted 
to put that on the record.
    Now, Mr. Chairman, if I could turn to the panel.
    Sheriff Babeu, let me just in total openness here tell the 
rest of the folks here, you and I are good friends. And I have 
a great deal of respect for you. And your credibility on this 
issue is unimpeachable.
    So I ask you, do you think that the new policies 
implemented by the Obama administration serve as an adequate 
deterrence or perhaps an invitation to those who seek to enter 
our country illegally? And do you think these policies--what 
kind of message do they send to criminal aliens as to the 
consequences of their conduct?
    Sheriff Babeu. Congressman Franks, through the Chair, one, 
we all appreciate you. Even though you are not one of the 
Congressman in our county, we love you just the same.
    Clearly this acts as an incentive that if, not just the 
fact that it is--we keep hearing 5 million. This document by 
Jeh Johnson includes, whatever that number of illegals here 
from January 1st of 2014, includes all of them. So this is 
where that deferred action is far larger than this 5 million 
figure that we simply keep hearing about. That will act as an 
incentive.
    The other thing we are seeing--everybody says these numbers 
are down. Yes, in fact, they are.
    And Janet Napolitano, when she was the Secretary, was at a 
press conference in our State one time and the media came 
around, Well, Sheriff, how do you refute that crime is down all 
along the border? I said crime is down all cross America and 
all the violent crime statistics.
    And the fact that we forget that our economy, everybody has 
talked about a recession. There are communities in my county 
that had 21 percent plus unemployment.
    And so imagine what is going to happen now that we had 1986 
with Simpson-Mazzoli Act, and now with 11 million plus 
illegals. There is a third wave that is coming if we don't 
secure the border. So that should be the alarm that is sounded 
now.
    Mr. Franks. Thank you, sir. I appreciate your good work.
    And, Professor Ting, if I could pass a question to you, 
sir. The Committee has received reports that the Mexican drug 
cartel members are abusing the credible fear process to bypass 
regular immigration checks in order to get into the country. 
And that has been confirmed in meetings with staff, that there 
are internal documents making these claims.
    And I wonder if you could expand on that and tell us why 
you think that is happening and what the implications are.
    Mr. Ting. Well, I think all you have to do is look at the 
approval rate for the credible fear questions that are being 
asked at the border to see that it is almost a green light for 
people that want to make a credible fear claim at the border. 
And then they get put in the line to await a hearing date 
before an immigration judge where they can make their asylum 
claim.
    The lines are growing. The system is under attack just from 
the sheer numbers of people coming across and making credible 
fear claims. You know, people are qualifying for work 
authorization because they are in line for so long. How are 
they supposed to support themselves while they are waiting for 
their hearing?
    And, you know, I am going off track here, but the people 
who are most adversely affected by all this illegal immigration 
qualifying for work authorization are legal immigrants, the 
people that just got here and who are legally entitled to work 
here. And they are being forced to compete with illegal 
immigrants, and so it is the less-educated, less-skilled 
segment of our workforce that is most suffering from this 
competition from illegal immigration.
    And credible fear is just part of it. As I have testified, 
it was never intended to be used the way that it is being used 
now, as a means of entry for people that don't meet the 
threshold for asylum, but they can get through the credible 
fear test and get into the United States. I don't think that 
was ever the intent of Congress when they enacted credible fear 
and put it in the statute. And I am hopeful that someday you 
will take it out.
    Mr. Franks. Thank you, Mr. Chairman.
    Thank you.
    Mr. Goodlatte. The gentleman from Florida, Mr. Deutch, is 
recognized for 5 minutes.
    Mr. Deutch. Thanks, Mr. Chairman.
    Professor Ting, I think credible fear claims are there so 
that we don't send people back to violence, right? Credible 
fear claims are available so people don't go back to a 
situation where they could be killed. So I would disagree with 
the suggestion that the credible fear claim be taken out of 
statute, thereby making the decision that it is appropriate for 
us to remove a possible step that can save someone's life.
    But let me get to my comments that I wanted to make. I 
spent some time this morning thinking about how it is that we 
got here. And it seems to me that the debate over immigration 
reform has regressed and it has done so rapidly. How did a 
Congress that was on the cusp of fixing our broken immigration 
system end up back at square one?
    In 2013, the Senate included in its comprehensive 
immigration reform bill portions of the McCaul border security 
legislation which was deemed unworkable and unrealistic on its 
own. Let's be honest, in 2015, the McCaul border security bill 
on its own remains just as unworkable and unrealistic. And 
instead of uniting behind comprehensive immigration reform, 
we're once again dividing among party lines and splitting into 
factions with separate agendas.
    Democrats are more than willing to accept increased 
spending of the border within the context of broader 
immigration reform. We just believe that the status quo is 
unworkable. We spend more money on border security than we do 
on any other Federal law enforcement priority, and we still 
have 11 million undocumented immigrants here. Instead of 
treating them like criminals, Democrats believe reform must 
invite them to come out of the shadows, pay a penalty, pay 
their taxes, and maybe--just maybe--someday get the chance to 
apply for citizenship.
    We also share the commitment of our Republican colleagues 
to reform our visa programs, respond to the needs of businesses 
that rely on high-skilled technology workers, and low-skilled 
guest workers. Likewise, Democrats and Republicans who share 
the priorities of the faith community want an immigration 
system that puts families first. So that is the issue I would 
like to bring up today with our panel, how we treat families.
    Our Nation has a long history of providing protection to 
people fleeing violence, as I referred to earlier. People 
fleeing religious persecution, political censorship, and 
oppression. But today we treat most of those seeking asylum as 
criminals. Upon arriving here, they are held in facilities that 
are for civil detention in name only. The reality is that most 
are just sections of private prisons where we keep hardened 
criminals.
    Indeed, an April 2013 report by the United States 
Commission on International Religious Freedom determined that 
nearly 84 percent of the 33,400 detention beds maintained by 
ICE were actually prisons, not civil detention sites. Refugees 
held in these jail-like detention facilities have their 
movements, their privacy, and their personal freedom 
restricted. And when we treat refugees as criminals, we don't 
sound like the United States of America, the country that is 
supposed to lead the world with its values for human rights, 
for justice, and for fairness.
    The purpose of detention is to ensure the people show up in 
court. Today many of them are mothers with young children 
fleeing extreme transnational gang violence in Central America. 
We don't need to lock them up in prison or immediately deport 
them. They have no reason to flee immigration court. Indeed, 
returning families with young children to their home countries 
without a review of their asylum claim could be a life or death 
situation.
    We ought to be reviewing their claims for asylum, making 
efforts to resettle them, and make them feel at home in our 
communities as quickly as possible. We should embrace far less 
costly, and far more human and humane alternatives to 
detention. Detention costs more than $2 billion a year. This is 
a daily cost of $159 per day, per detainee. Alternatives to 
detention--including release on bond, supervised released, and 
community-based programs--cost between 70 cents and $17 per 
person per day.
    But Congress has imposed on law enforcement a quota on how 
many people must be held in detention facilities every day. 
Immigration and customs officials, like all officers of law, 
should have the discretion to make their decisions based on 
facts, not some quota imposed by politicians. Welcoming 
refugees seeking safety and security in our country by placing 
them in detention is inconsistent with our Nation's values for 
respect and humanity. Our debate on immigration reform needs to 
reflect our moral leadership.
    And so I would ask, Dr. Rosenblum, that when you talk about 
judicial capacity and a need to adjudicate cases, we are 
spending so much money following the detention bed mandate. 
What would it cost for us to fully address this shortfall to 
make sure that cases could be quickly adjudicated, something 
that I think everybody would agree is necessary?
    Mr. Rosenblum. Thank you. I wish that I could give you an 
exact number, and I can get back to you with that. What I can 
tell you is that since 9/11, while we have tripled our spending 
on ICE and CBP on enforcement, we have only increased our 
immigration judges by about 70 percent. So the reason that the 
backlogs are getting longer and longer is that we have 
systemically underfunded immigration judges, and we are putting 
more and more people into the system, but there is not the 
capacity for them to flow through it.
    Mr. Deutch. Thank you.
    Thank you, Mr. Chairman.
    Mr. Goodlatte. Thank you.
    Chair recognizes the gentleman from Texas, Mr. Gohmert, for 
5 minutes.
    Mr. Gohmert. Thank you, Mr. Chairman.
    Thank the witnesses for being here.
    I heard testimony earlier that about 50 percent of those 
illegally here after being released without being deported 
commit crimes against other Americans. I know as a judge, when 
I was considering bail or bond, that was a primary 
consideration, the likelihood of them returning and the public 
safety. I can't imagine releasing somebody on a makeable job if 
both sides agree the defendant had a 50 percent chance of re-
offending, committing a further crime if I let him go. That is 
just unconscionable.
    We talk about the children and the women and the people 
across America and protection of families. My gosh, we are 
releasing criminals to go after them? That is outrageous.
    Well, and then also, I hear, Sheriff, you say 30 to 50 
criminals per day are being released in your county alone by a 
CIS. That is the very people the President has called bad 
actors and yet his policies are responsible for letting them go 
upon the families of America.
    Well, let me just say, I am very concerned about the way 
the money is being spent. And, by the way, for those that are 
not familiar, we had a lot of crimes being committed in the 
U.S. and in my State in the 1980's, so America reacted, Texas 
reacted. We elected criminal judges, tough prosecutors, and we 
are reaping the benefits of people who were law-enforcement-
minded going into the sheriffs jobs, prosecutors jobs, judges 
jobs. And we will be able to ride that for a while before 
people with bleeding hearts let the criminals go, and then 
people eventually will have another wave while they react when 
the crimes go up. I know that that is just a cycle, but right 
now we are in a cycle of letting criminals go.
    And the criminal law in America is something that concerns 
me at the Federal level because of something called the 
Antideficiency Act. I am not sure if the witnesses are familiar 
with that, but the law is very clear: If Congress appropriates 
money for one purpose, it is not to be used for another purpose 
unless proper steps are utilized. And so I know that we have 
heard from the news, there was a facility built over in Crystal 
City for awarding these amnesty work permits.
    Some of us are wondering where that money came from. You 
know, we hear clamoring that they need more money, but where 
did that money come from? Because I know Congress certainly was 
not notified that they were shifting funds from one 
appropriated purpose to Crystal City and to awarding these 5 
million or so work permits that basically amount to amnesty.
    Do any of the witnesses know where that money came from?
    Ms. Vaughan. I think that is something that Congress should 
be asking. Because USCIS, the agency that is responsible for 
issuing these benefits, has not collected a single dime in fees 
from any future applicants for the new deferred action work 
permit program. So it certainly appears that they have perhaps 
been hoarding money skimmed from the fees paid by legal 
immigrants. USCIS is funded by fees paid by legal immigrants 
and their sponsors for a service that they get. And these fees 
are carefully----
    Mr. Gohmert. Right. And that creates another problem 
because we have seen reports that people--my office is 
helping--that came here legally as immigrants we welcome, 
trying to get a spouse in. They have paid higher fees to try to 
expedite those, and it turns out this Administration is 
illegally moving that money over to give priority to people 
that came in illegally, thus putting people that are trying to 
do the legal immigration process a terrible disservice by 
putting them at the back of the line.
    So I know, Ms. Vaughan, you are in the business of 
investigating these, and I hope you will assist us.
    Professor Ting, are you familiar with Antideficiency Act 
and how it might be brought to bear on this situation?
    Mr. Ting. I am not.
    Mr. Gohmert. Well, I would encourage you as a law 
professor, if you would, to look at that.
    And also, just in finishing, Congress has the power even 
after the Supreme Court decision in the Arizona case to ask for 
help and appropriate money. Sheriff, would you have any problem 
if we block granted money from CIS to local law enforcement to 
get local law enforcement to help do the job that CIS is not 
being allowed to do?
    Sheriff Babeu. No problem whatsoever.
    Mr. Gohmert. That is what I thought. Thank you very much.
    Mr. Goodlatte. Chair thanks the gentleman and recognizes 
the gentleman from Louisiana for 5 minutes.
    Mr. Richmond. Thank you, Mr. Chairman.
    Dr. Rosenblum, thank you for coming and I will let 
President Fos know that you are representing him very well 
here.
    Professor Ting, you in your suggestions, you said that 
maybe we should remove asylum completely and go to the 
withholding of removal and at the same time educate our Border 
Patrol officers so that they can make that determination. I am 
sure you know that asylum and withholding of removal have two 
different legal standards. So withholding of removal is a more-
likely-than-not or 50-percent-plus-one standard, and asylum is 
more likely than not, which the courts define as reasonable. So 
they are probably in the 40 to 50 percent range.
    If we go to what you are suggesting, withholding of 
removal, then people who are in that very reasonable 
possibility would be sent back to the danger that is very 
reasonable that they would encounter. Is that what we are 
trying to do? I mean, does your suggestion hinge on the 
standard or the Border Patrol agent executing it or making the 
evaluation?
    Mr. Ting. Well, I am saying the reality on asylum has 
changed. I think the asylum statute was a worthy and noble 
effort on the part of the Congress back in 1980, when it was 
added to our immigration law. But we got along without it 
before 1980, and we fulfilled our commitment under the 
Convention for the Protection of Refugees before 1980, and we 
did it through withholding of removal. And I think we could do 
it again.
    I think there are many differences between the two 
statutes. I think asylum offers more benefits. I think some of 
those benefits could be added to withholding of removal, but I 
certainly noted in my testimony that there is a different 
burden of proof that attaches. I am concerned about asylum 
fraud, which I think is widespread, and I have testified to a 
Subcommittee of this Committee----
    Mr. Richmond. If I can, I don't mean to interrupt you but I 
have to. Let me ask you about, do you have any concern with the 
new time and resources that would be dedicated by those agents 
to evaluating the claim as opposed to patrolling the border?
    Mr. Ting. I am very concerned about expenditure of 
resources, and I have listened with attention to the concerns 
of the Committee on the high expenditures that go into 
immigration enforcement. But the easiest way to cut 
expenditures would be just to repeal all immigration laws and 
say everyone in the world could come to the United States. That 
would cut expenditures on immigration enforcement. So if you 
want to cut it to the bone, just repeal all the immigration 
laws.
    If you are going to enforce a limitation, someone has got 
to do this. The worst of all possible worlds is to keep the 
limitation on the books, keep spending the money but not 
enforce the limits. That, to me, is the worst possible 
possibility.
    Mr. Richmond. Sheriff Babeu, let me ask you a question, and 
I pulled up an article where you were speaking at a 
neighborhood watch meeting--and this is not a gotcha moment--
where you said that many of the ICE detainees are held at 
private facilities which are contracted to house criminal 
illegals. ICE reportedly plans to reduce their available beds 
from 34,000 to 25,700.
    But what is important is what you characterized it as, and 
here, my interpretation is you characterized this as the 
largest prison break attributed to the Administration. But here 
you call it the largest pardon, due to mass budget cuts, which 
I would necessarily tend to agree with. So, as you characterize 
it, is it the Administration, or is it just the pure 
dysfunction in Washington not getting a comprehensive 
immigration bill and some on spending? So which would it be, in 
your opinion?
    Sheriff Babeu. Through the Chair, Congressman, at that 
time, when all that was going on was during the sequester.
    Mr. Richmond. Right.
    Sheriff Babeu. And so that was probably the first turn up 
the volume of you want to feel pain--2,228 at that time----
    Mr. Richmond. Correct.
    Sheriff Babeu [continuing]. And it was reported that 5,000 
to 10,000 were said to be scheduled for release, and it was 
halted because it became public knowledge. So I would say it is 
not just the dysfunction; it is everybody was a part at one 
time. And it is not Congress' decision to release those people. 
It certainly wasn't mine. It was this Administration's 
decision----
    Mr. Richmond. But we did in that sequester. That was 
Congress who did sequester.
    Let me ask you one final question.
    Sheriff Babeu. Yes.
    Mr. Richmond. If your dispatchers or you received a call, 
and you have three officers on duty and the call said, I have 
an active shooter, I have a bank robbery, and a hostage 
situation--three different situations. I have a car accident, 
and I have some other trivial--and shoplifting. If you had 
three officers, where would you assign them in terms of triage 
and the importance, and as the President setting up the 
categories of deportation, didn't he do the same thing?
    Mr. Goodlatte. The time of the gentleman has expired, but 
the witness will be permitted to answer the question.
    Mr. Richmond. Mr. Chairman, thank you, and I yield back.
    Sheriff Babeu. Certainly, in local law enforcement county, 
our priority one calls, which is a threat to somebody's life or 
property secondary would be the active shooter and the armed 
robbery, which we have had those--bank robberies--in our 
county. But here is the point, the highest priority is these 
now 24,000 that are in these authorized beds that we have all 
agreed that whether they have committed multiple misdemeanors 
or serious violent felony offenses and convictions, that these 
people are the bad actors.
    Those people must be returned to whatever country they come 
from. And that is the problem that most in America are having 
heartburn over, certainly us in law enforcement, because they 
are being released. And we don't know where they are going and 
what their names are. And I have asked for that information 
numerous times under Freedom of Information. It has been denied 
to me as a sheriff for 2 years.
    If you ask, Congressman, even though you are from 
Louisiana, who is in my jail and what charges they are, you 
will get it that quick. And that is because I am compelled to 
provide that information, yet here I am the sheriff, and they 
won't give me this information in my own county.
    Mr. Goodlatte. Chair recognizes the gentleman from 
Pennsylvania, Mr. Marino, for 5 minutes.
    Mr. Marino. Thank you, Chairman.
    Dr. Rosenblum, if you would, please, do you believe that we 
should secure the borders before we start talking about any 
immigration reform? Because I believe that whenever we are 
talking about the borders aren't secured, we are just going to 
have an onslaught of people. Do you agree with that?
    Mr. Rosenblum. I believe that it will be much easier for 
DHS to secure the borders more effectively and at a lower cost 
if it is combined with visa reform.
    Mr. Marino. Talking about individuals that may be here 
legally but their visas have expired for some reason or 
another.
    Mr. Rosenblum. Visa over-stayers. I am not sure I 
understand the question, sir.
    Mr. Marino. Are you referring to visa over-stayers?
    Mr. Rosenblum. My argument is that a big part of why we 
have struggled so much to secure the border is that the demand 
for immigration within the U.S., employers and families who 
want to bring people here, and within extending regions, Mexico 
and Central America, is much greater than what our laws 
currently allow.
    Mr. Marino. But you do agree that we need to secure the 
borders?
    Mr. Rosenblum. Yes.
    Mr. Marino. All right. Good. That is a start.
    And I don't like this term ``comprehensive.'' What does 
comprehensive mean? This is so complicated that this cannot be 
done in one fell swoop.
    I am going to quote some figures. I see you have some 
really--I have been reading this--not here, but also before you 
got here--information concerning people that were sent back, 
individuals, under what circumstances they were sent back. But 
first of all, do you agree with me that--and I am sure you have 
read this in the media--that the only part of DHS that we do 
not want to fund is amnesty for illegals. Are you clearly aware 
of that?
    Mr. Rosenblum. That Congress has not funded amnesty for----
    Mr. Marino. Yes.
    Mr. Rosenblum. Yes.
    Mr. Marino. Okay. And you are clearly aware that it is the 
up to the President if he wants to shut down the entire DHS 
because he can't have his way on illegal immigrants, correct?
    It is not a tough one, professor. You are a Ph.D., okay.
    Mr. Rosenblum. I mean, Congress and the executive branch 
negotiate over legislation, so it would sort of take two to 
tango on that, I think, sir.
    Mr. Marino. Oh, two to tango. But if you are in that 
position--let me put you in that position--would you shut down 
all of DHS because you don't get one small part?
    Mr. Rosenblum. Um----
    Mr. Marino. I think you have answered it.
    Okay. Let me give you some stats that I got from 
PolitiFact, on PunditFact, from Dobbs Report, from Washington 
Times, from Breitbart, and actually, U.S. Customs had a report 
that came out that I went back to and they were asking me, 
where did you get that document. But in 2008, turnaways at the 
border were about 36 percent of the overall figures that this 
Administration factored in.
    Now, it is my understanding, previous Administrations--and 
I have done work on this--have not counted turnaways at the 
border as sending people back. And that has increased to 64 
percent in 2013. So it is very clear that the Administration is 
fudging the figures by adding turnaways at the border. Do you 
agree with that?
    Mr. Rosenblum. The research that I have seen from the GAO, 
the data on turnbacks and gotaways is in a GAO report that came 
out in December 2012, and that report starts counting turnbacks 
in 2006. So it was the previous Administration. But I agree 
with you----
    Mr. Marino. I am not disputing what previous 
Administrations should have done and didn't do and may have as 
far as figures are concerned. But you agree with me that these 
figures that the Administration is putting out include 
turnaways at the border--not people here, not in this country 
that they are sending back.
    Mr. Rosenblum. You are talking about their deportation 
numbers?
    Mr. Marino. Yes.
    Mr. Rosenblum. So I believe that every Administration 
counts people who are put into removal at ports of entry as 
removals. What has changed under this Administration is----
    Mr. Marino. But I am talking about once they set foot on 
U.S. soil. And it is clearly----
    Mr. Rosenblum. They are apprehended on U.S. soil and then 
deported.
    Mr. Marino. Yeah. But this Administration is using people 
when they get to the border, when they get to that guard and 
they are sending them back, they don't get a chance to get into 
the United States, those figures are factored in there.
    Mr. Rosenblum. When people are apprehended at the border 
and put into expedited removal, for example, those were 
definitely counted removals. That was previously true and still 
true.
    Mr. Marino. Okay, good.
    Mr. Rosenblum. I agree with you on----
    Mr. Marino. So you agree with me on several matters here, 
and we need reform.
    Do you agree with me on this? My colleagues on the other 
side of the aisle for 2 years, they had the White House, they 
had the Senate, and they had the House; they did nothing on 
comprehensive immigration reform. And I am going to be the 
first to stand up and say neither did any other previous 
Administration. And it is at a point now where it is desperate 
from a multitude of areas, and you and I would agree on some 
and not the others.
    How about the workforce? Can you address some issues on the 
workforce, pursuant to--right now there are between 800,000 and 
1 million people that are not looking for work. Those figures 
aren't even in the unemployment numbers. And the reason why the 
unemployment numbers, in part, are coming down, is because 
those people stopped looking for work. You agree with me on 
that?
    Mr. Rosenblum. Yes.
    Mr. Goodlatte. The time of the gentleman has expired.
    Mr. Marino. And I will yield back, then.
    Thank you, sir.
    Mr. Goodlatte. I thank the gentleman.
    Chair recognizes the gentleman from New York, Mr. Jeffries, 
for 5 minutes.
    Mr. Jeffries. Thank you, Mr. Chairman.
    And I thank the witnesses for their presence here today.
    Sheriff Babeu, are you familiar with a publication call the 
Arizona Daily Star?
    Sheriff Babeu. Yes.
    Mr. Jeffries. Is that a credible news organization?
    Sheriff Babeu. I don't decide who is credible and who is 
not. I know that most of the news--I don't know if they print 
in paper or are online, but I have seen them numerous times as 
being credible.
    Mr. Jeffries. Okay. Thank you.
    Now, 5 years ago, you appeared on a radio program entitled 
Political Cesspool, correct?
    Sheriff Babeu. Yes. That was addressed by, I believe, Mr. 
Johnson earlier.
    Mr. Jeffries. Okay. I just want to make sure the record is 
clear. Now, that program was hosted by James Edwards and Eddie 
Miller, correct?
    Sheriff Babeu. I am not sure who it was hosted by.
    Mr. Jeffries. You don't recall who it was hosted by?
    Sheriff Babeu. I don't. There was a show that I believe it 
was Ms. Jackson Lee who raised the issue earlier.
    Mr. Jeffries. Okay. Now, the Political Cesspool program has 
been recognized by both the Southern Poverty Law Center and the 
Anti-Defamation League as a form for hosting White 
supremacists, anti-Semites, and other hate mongering, correct?
    Sheriff Babeu. From my understanding that once we became 
aware of any of their past comments, we disavowed who they are, 
what they stand for. They didn't say any of that on the show. 
We were talking about immigration, as we do quite often outside 
the State, via telephone. So there is no relationship. This was 
one contact that we immediately disavowed any association with 
or any of their espoused views or reported espoused views.
    Mr. Jeffries. Thank you for that response. And I appreciate 
the fact that--I do believe in good faith--you have disavowed 
the views that were brought to your attention, according to 
your testimony after appearing on the program. But I just want 
to make sure that the record is clear.
    And, Mr. Chairperson, I ask unanimous consent that we enter 
into the record an article from the Arizona Daily Star, dated 
July 20, 2010.
    Mr. Goodlatte. Without objection, it will be made a part of 
the record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Jeffries. Okay. And that article, Sheriff, states that 
James Edwards, who hosted the interview, along the Eddy Miller, 
said that Miller spoke with you and his spokesman, your 
spokesperson, multiple times before the interview.
    And then it goes on to quote Mr. Edwards and says: ``For 
Sheriff Babeu to change his mind and now regret coming on our 
show for whatever reason is his right. For him to act as though 
he had no idea of our ideology is a lie,'' Edwards said in a 
written statement on the show's Web site. That is Mr. Edwards' 
representation of what took place in advance of your appearance 
on the show.
    If I could turn to Professor Ting, every President since 
Eisenhower has taken Executive action to provide some form of 
immigration relief, correct?
    Mr. Ting. Other presidents have taken
    Executive action in immigration, but I believe all of those 
cases are distinguishable from the Executive action that 
President Obama has taken on a variety of reasons, not least of 
which is a the sheer number involved.
    Mr. Jeffries. To be precise, it has happened 39 times since 
the 1950's, correct?
    Mr. Ting. I am not sure of the exact number. I am aware 
that there are precedents that are cited by President Obama's 
Office of Legal Counsel in their report. I have read their 
report. I think all their examples are distinguishable.
    Mr. Jeffries. Are you aware that President Reagan and 
President Bush did it in connection with the family fairness 
policy after the 1986 Immigration Reform and Control Act was 
passed by Congress?
    Mr. Ting. I have specifically addressed the family fairness 
example in my written testimony, and I explain in my written 
testimony why that is distinguishable from what President Obama 
is trying to do.
    Mr. Jeffries. Right. Now, Congress has never given the 
President the resources necessary to deport all 11 million 
undocumented immigrants, correct?
    Mr. Ting. There is never enough resources for any agency in 
this government that I am aware of.
    Mr. Jeffries. That is just a yes or no question.
    Okay. So I take it that the answer is no.
    In fact, $8.5 billion is allocated in this particular 
appropriations bill that we will be considering. In order to 
deport all 11 million undocumented immigrants, it would take 
$285 billion. And so my question to you is if Congress has not 
given the President the capacity to deport all 11 million 
undocumented immigrants, doesn't the Administration have the 
inherent authority to decide that it is going to prioritize 
deportations of felons over deportations of families?
    Mr. Ting. Congressman, with respect, I think this notion 
that the only alternative is to deport 11 million illegal 
aliens is a straw man that is put out there. I mean, what is at 
issue and what I think that Congress needs to debate is whether 
the policies of this Administration encourage further illegal 
immigration into the United States or not. That is what is at 
stake.
    I will concede, you will never get the amount of illegal 
immigration down to zero. That will never happen. You will 
never get the number of illegal immigrants down to zero. But 
you have to set a policy that affects the cost-benefit analysis 
of people wanting to come to the United States illegally as to 
whether you tip them toward not coming and violating our law 
and overwhelming our system, or whether you tip them in favor. 
Yeah, let's get the heck in there and see what benefits come 
our way. That is what is at stake. It is not a question of, 
well, either deport 11 million people or don't. That, I agree 
with you, is never going to happen.
    Mr. Jeffries. Thank you.
    Mr. Goodlatte. Time of the gentleman has expired.
    I want to--since a document was made a part of the record 
that casts aspersion on the character of the sheriff--I want to 
give Sheriff Babeu an opportunity to respond if he chooses to.
    Sheriff Babeu. Yes, Mr. Chairman, and Congressman, I meet 
and probably take as many photos with individuals as you do or 
other members of this panel. It never means that if I talk to 
somebody that I all the sudden assume their positions or their 
beliefs or their entire history. Even though I am in law 
enforcement, I didn't do a criminal history on you prior to 
talking with you. And it certainly doesn't mean that I 
subscribe to your beliefs or political views.
    Mr. Goodlatte. Chair recognizes the gentleman from Ohio, 
Mr. Jordan, for 5 minutes.
    Mr. Jordan. I thank the Chairman.
    Professor Ting, I want to go to, 22 times the President 
said he couldn't do what he turned around and did. Two of those 
were while he was candidate Obama. The other 20 were while he 
was President Obama. And I want to just take one of those 
statements and kind of walk through it. In fact, the two that 
he made while he was candidate may have had an impact on your 
decision to vote for him. I think you indicated to one of the 
Members on the other side of the aisle that you voted for 
President Obama, where he was talking about adhering to the 
Constitution, recognizing the separation of powers and the 
proper role of each branch of government.
    But I want to just focus on one of these statements and 
kind of walk you through it and show where you agree with 
President Obama: There are those who have argued passionately 
that we should simply provide those who are here illegally with 
legal status or at least ignore the laws on the books and put 
an end to deportation until we have better laws. I believe such 
an indiscriminate approach would be both unwise and unfair.
    You would agree with that, wouldn't you, Professor, to 
ignore the laws and end deportation would be unwise and unfair?
    Mr. Ting. I am aware of the 22 examples that have oft been 
cited, and I think the President was right at the time that he 
said those things, and I think he is wrong to have overridden 
his better judgment in the past.
    Mr. Jordan. He made this statement in July of 2010. And so 
I guess my simple question is, it is unfair and unwise to not 
follow the law; you would agree?
    Mr. Ting. Yes.
    Mr. Jordan. It goes on further. It would suggest to those 
thinking about coming here illegally that there would be no 
repercussions for such a decision and this could lead to a 
surge in more illegal immigration. If we don't follow the law, 
if we don't deport, if we don't do what the law says, you, in 
fact, could have a surge in illegal immigration, correct?
    Mr. Ting. Absolutely. And I think----
    Mr. Jordan. And that is exactly what we have seen; is that 
correct?
    Mr. Ting. Yes, I agree.
    Mr. Jordan. All right. He finishes with this: Ultimately, 
our Nation, like all nations--oh--and it would also ignore the 
millions of people around the world who are waiting in line to 
come here legally.
    You agree too that if we don't follow the law and end 
deportation, it hurts those who are doing it the right way and 
could hinder and prolong their ability to follow the law and 
become a legal citizen of this great country. Would you agree 
with that, professor?
    Mr. Ting. I absolutely agree, and we should not forget that 
there are qualified legal immigrants that have been waiting in 
line in excess of 20 years for their chance to immigrate to 
this country legally. So when we are dealing with how we should 
handle illegal immigrants, we should not forget----
    Mr. Jordan. Right.
    Mr. Ting [continuing]. Those people standing in line trying 
to do it the right way.
    Mr. Jordan. No kidding. No kidding.
    Okay. And then: Ultimately, our Nation, like all nations, 
has the right and obligation to control its borders, set laws 
for residency and citizenship. And no matter how decent they 
are, no matter those who broke the law should be held 
accountable.
    You would agree that the rule of law is important and those 
who broke the law should be held accountable, wouldn't you, 
Professor?
    Mr. Ting. Yes, of course.
    Mr. Jordan. And you would agree that a sovereign nation has 
a right to control its border and actually set those laws?
    Mr. Ting. Absolutely.
    Mr. Jordan. And that people break them, they should be held 
accountable.
    So here is the question: We have a bill that comes due or a 
funding bill that expires in 24 days, and in that legislation, 
we have said and we have done exactly what the President said 
back when you probably decided you were going to vote for him, 
back in July of 2010. We got a bill that is coming due, and it 
is real simple. We say in that bill we are going to fund and 
take care of Department of Homeland Security, but we are not 
going to allow the people's money, the American taxpayer money, 
to be used to violate everything the President said in that 
statement and to allow people to ignore the law and stay here 
and actually have benefits conferred on them.
    Would you agree with that legislation we passed out of the 
House, Professor?
    Mr. Ting. Yes. I think, frankly, Congressman, if you didn't 
do that, a lot of Americans would wonder why you didn't do 
that--why you didn't fund all the parts of DHS except for the 
part that you object to. That is what should be done, and then 
you should enter into negotiations with the President as to----
    Mr. Jordan. In his 22 statements where the President cited 
separation of powers, Constitution, the role of the various 
branches of government, the one power that the legislative 
branch has is the power to control the purse, the power of 
spending the people's--the taxing and spending authority, 
correct?
    Mr. Ting. Absolutely.
    Mr. Jordan. And we should stand firm, particularly in the 
matter of this substance--where it is about the rule of law, it 
is about the Constitution, it is about the sovereign right of a 
nation to control its border, and it is about treating legal 
immigrants in a fair and compassionate way--we should stand 
firm on the legislation we passed. Would you agree, Professor?
    Mr. Ting. I do.
    Mr. Jordan. Mr. Chairman, I yield back.
    Mr. Gowdy [presiding]. Thank the gentleman from Ohio.
    They have called votes, but I am going to try to get in the 
gentleman in from Rhode Island, if he is amenable to that.
    Mr. Cicilline. Yes.
    Mr. Gowdy. Mr. Cicilline from Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman. Mr. Chairman, 
barely a month ago when this Congress began, the majority 
pledged to put aside petty and purely political disagreements, 
and we promised to Congress that we would work constructively 
together on behalf of the American people, and yet today we 
find ourselves litigating the same tired and defeating 
arguments from years passed.
    The Obama administration has made securing our borders a 
top-line priority, spending its limited enforcement resources 
on deporting felons, not families. But even as my esteemed 
colleagues across the aisle argue that this Administration is 
not serious about enforcement, they are refusing to fund the 
Department of Homeland Security for a second time in the last 
15 months.
    Until my friends on the other side of the aisle start to 
treat immigration reform as something more than a political 
talking point, we are going to be unable to achieve 
substantive, lasting progress on this issue.
    And this hearing began with the premise that the lack of 
enforcement is the challenge. And I want to thank Dr. Rosenblum 
for sharing the facts, which no objective observer could 
conclude that that statement is true; in fact, that this is 
sort of unprecedented enforcement on virtually every measure. I 
want to make two quick points and ask one question.
    Sheriff Babeu, you said, referring to this memorandum of 
Secretary Johnson, I think you have made the claim that it 
directed the Department of Homeland Security not to take action 
on any of the 11 million people in the United States and would 
result in 20 million additional people being allowed to remain 
here. You pointed to page 4(c). Just to be clear, this 
memorandum says emphatically, Our enforcement and removal 
policy should continue to prioritize threats to national 
security, public safety, and border security.
    And what you refer to in 4(c) is actually one of the 
priorities for deportation and removal. So the note--there is 
no claim in here whatsoever that supports the claim you made.
    And I ask that this article, ``Statistics Don't Support 
Pinal Sheriff Babeu's Statement on Trafficking,'' which is from 
the Arizona Republic, February 3, 2015, which goes through and 
has a series of analyses done on the claims that you make and 
finds that, in fact, they are not supported by evidence, I 
would ask unanimous consent that be made part of this record.
    Second, I would just want to follow up on the gentlelady's 
question from Texas in which you gave an alternate explanation 
about your involvement in a controversy involving a school bus 
filled with children. And I am quoting now from the Arizona--in 
fact, from The Republic, an editorial in which they say, and I 
quote, Hoping to orchestrate Arizona's own version of the 
raucous anti-immigrant protest at Murrieta, California, that 
you instead orchestrated a gauntlet of terror for 40 or 60 kids 
en route to a day of ping pong and basketball at YMCA Triangle 
Y Camp. But wait, Babeu's manipulative grandstanding is worse 
than you may think. As dozens of protesters rolled up onto the 
scene on the Mt. Lemmon highway, Babeu had the astonishing 
temerity to declare he was there to serve as ``peacemaker.'' 
Think of the pyromaniac who tortures his own house, then throws 
himself onto the mercy of the court as a homeless waif.
    According to one protester organizer, Babeu told her, ``The 
only way to stop this was for our community and the area to 
organize.''
    This is an editorial entitled `` `Sheriff Showboat' Babeu 
Has Disgraced the Office.'' I ask that that be made part of the 
record.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
    Mr. Cicilline. And now I turn finally to Professor Ting, 
who says that immigration is bad for American workers and jobs. 
The American Enterprise Institute found that temporary foreign 
workers, both skilled and unskilled, actually boost U.S. 
employment. The same analysis found that millions of 
unauthorized workers and the priorities of family reunification 
would help, that there was no evidence, excuse me, that 
foreign-born workers would hurt the employment rate of U.S. 
workers. And, in fact, two reports, one by the Congressional 
Budget Office, found that the gross domestic product would grow 
by 5.4 percent, $1.4 trillion, and wages would be increased by 
.5 percent for the entire labor force by 2033. In addition to 
that, there is a report from the President's Council of 
Economic Advisers that concludes that both--that average wages 
for all workers will increase as a result of the Executive 
action. I ask unanimous consent that both of those reports be 
included in the record.
    And I would ask you, Dr. Rosenblum, is Professor Ting right 
that comprehensive immigration reform is bad for workers, 
American workers, and bad for American wages?
    Mr. Rosenblum. Thank you. Well, we have had a lot of 
discussion about the economics of immigration. There are no 
economists on this panel. But when you read the economics 
literature, the academic economics literature, there is a 
pretty broad consensus that immigration boosts overall GDP, 
that it raises wages for the average U.S. worker. It raises 
wages most for middle-class and high-wage workers.
    And I agree with Professor Ting that the one group that may 
compete a little bit with new immigrants are previous 
immigrants. But on that, economists are pretty broadly in 
agreement that immigration is good for the U.S. economy across 
a number of different indicators.
    Mr. Cicilline. Thank you.
    I yield back, Mr. Chairman.
    Mr. Gowdy [presiding]. All right. The gentleman yields 
back. We have a vote series, and we will----
    Ms. Jackson Lee. Mr. Chairman.
    Mr. Gowdy. Yes, ma'am.
    Ms. Jackson Lee. I would like to enter a number of 
documents into the record, please. I would like to ask 
unanimous consent to enter these documents.
    Mr. Gowdy. As expeditiously as you can so we don't miss 
votes.
    Ms. Jackson Lee. Thank you, Mr. Chairman, very much.
    I would like to enter into the record data from the Customs 
and Border Protection indicating that apprehensions of 
unaccompanied children have gone down 38 percent in 2015 from 
the same time last year; and for family units, gone down in 
2015, fiscal year 2015, from 2014, 12 percent. I ask unanimous 
consent to submit that document into the record.
    Mr. Gowdy. Without objection.
    Ms. Jackson Lee. I would additionally like to submit into 
the record documentation from the Executive Office of 
Immigration Review indicating that in the time period of July 
18, 2014, and December 23, unaccompanied children had a 14 
percent absence rate, meaning----
    Mr. Gowdy. Without objection.
    Ms. Jackson Lee. Without objection, thank you.
    And then a document that indicates that adults had an 
absence rate of 23 percent, showing that they do appear at 
immigration hearings.
    Mr. Gowdy. Without objection.
    Ms. Jackson Lee. And lastly, the EOI, the data from 
Executive Office of Immigration Reviews, the agency that 
conducts immigration hearings, that the data that they are 
collecting has started in the point of July 18, 2014.
    Mr. Goowdy. Without objection.
    Ms. Jackson Lee. I ask unanimous consent.
    Mr. Gowdy. Without objection, the documents will be 
admitted into the record.
    [The information referred to follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
    Mr. Gowdy. To our witnesses, we apologize for the vote 
series. We are coming back, and we are coming back as quickly 
as we can right after the vote series.
    With that, we will temporarily be in recess.
    [Recess.]
    Mr. Gowdy [presiding]. The Committee is back in order.
    And the Chair would recognize the gentleman from Texas, 
former United States Attorney, Mr. Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman.
    As a former Federal prosecutor who has exercised 
prosecutorial discretion in charging hundreds of Federal 
immigration cases, I have enjoyed hearing the panel's diverse 
thoughts on the adequacy and enforcement of our Nation's 
immigration laws.
    Dr. Rosenblum, I--Mr. Chairman, I am going to yield back my 
time.
    Mr. Gowdy. The Chair will take your time and then yield my 
time to you if you want to ask questions in my slot. So we will 
do that.
    And I would say this.
    Professor Rosenblum, I was thinking on the way over to 
votes that the gentleman from Georgia asked everyone on the 
panel his or her political ideation except you. And I am not 
going to ask you your political ideation for this reason:It is 
of no consequence.
    When you work, as the sheriff does, for a blindfolded woman 
holding a set of scales, politics doesn't matter. I am very 
disappointed that any of my colleagues would have asked. They 
have the right to do it. I am not going to ask you about that.
    What I am going to ask you--and I am sure you do. I am sure 
you share with me an appreciation for members of law 
enforcement at all levels, but particularly State and local, 
who find themselves running toward danger so we don't have to 
and they have to deal with bad actors so we don't have to and 
they have to carry guns and wear bulletproof vests so we don't 
have to.
    And I guess, if the sheriff--if you all were to have a 
moment after this hearing, I suppose that our sheriff today 
would tell you the same thing that my sheriffs back home, 
Sheriff Wright and Sheriff Loftis, would tell you, that one of 
the hardest parts of being a local law enforcement is when you 
have to sit down with the family members of crime victims.
    If the victim lives, then you have that conversation with 
the victim herself or himself. If the victim doesn't and you 
find yourself talking to family members, invariably, the 
question always comes back to why was that person out. If they 
were out on bond when they committed the crime, they want to 
know why was the person out. If the person should have been 
deported and was not, they want to know why was the person 
here.
    So how would you help Sheriff Babeu or my sheriffs explain 
to crime victims when the fact pattern is the person wasn't 
supposed to be here anyway, committed a crime while they were 
here, served their sentence and, rather than being deported, 
were put back out into the public to commit another offense? 
How would you explain that to crime victims?
    Mr. Rosenblum. Thank you, Mr. Chairman.
    I would not enjoy having those conversations. I am sure you 
are right, that that is a terrible position to be in.
    You know, on this whole question of convicted criminals 
being released, I find that--I haven't studied those data like 
Ms. Vaughan has, but I think we all can agree that a plain 
reading of both the 2010 enforcement priorities and the 2014 
enforcement priorities says that people who have been convicted 
of serious crimes are the executive branch's top enforcement 
priorities. So----
    Mr. Gowdy. Do you consider domestic violence to be a 
serious crime?
    Mr. Rosenblum. I believe that domestic violence crime would 
be in the top-priority category in both the 2010 and 2014. 
Certainly in 2010 it was. I mean, I see your counsel shaking 
her head. I may be wrong about 2014. It may be in the second 
category in 2014.
    Mr. Gowdy. Well, what I found surprising was the 
comprehensive Senate immigration plan that so many of my 
colleagues on the other side fell in love with. You can 
actually be convicted of domestic violence and still remain on 
the path to citizenship. I find that almost impossible to 
believe.
    Let me ask you this about law enforcement: Who investigates 
most homicide cases in the United States?
    Mr. Rosenblum. I am sure that is State and local police.
    Mr. Gowdy. Who investigates most robbery cases?
    Mr. Rosenblum. I am sure as well.
    Mr. Gowdy. Who investigates most domestic violence cases?
    Mr. Rosenblum. State and locals.
    Mr. Gowdy. Who investigates most adult sexual assault 
cases?
    Mr. Rosenblum. I am sure that is also State and locals.
    Mr. Gowdy. Who investigates most child sexual assault 
cases?
    Mr. Rosenblum. State and locals.
    Mr. Gowdy. Who patrols the interstate, even though it is 
inherently interstate, and, therefore, impacts interstate 
commerce? Who patrols that?
    Mr. Rosenblum. That would also be State and locals.
    Mr. Gowdy. Who went door to door after the Boston bombing 
along with the Bureau and the ATF?
    Mr. Rosenblum. State and locals.
    Mr. Gowdy. Who provides security to the very same 
colleagues who don't want and don't trust local law enforcement 
to enforce our immigration laws? Who provides security for them 
when they are back in their district having their town halls 
and their public events?
    Mr. Rosenblum. State and locals.
    Mr. Gowdy. So if you trust them to do all of that, why 
can't you trust them to do immigration cases?
    Mr. Rosenblum. I think that that is an issue that is 
Congress' to decide.
    Mr. Gowdy. I am asking you.
    Would you support the SAFE Act, which allows State and 
local law enforcement to assist Federal law enforcement in 
enforcing our immigration laws?
    You are their witness. I assume they brought you for a 
reason.
    Mr. Rosenblum. I would say that, while I agree with you 
that State and locals play a role, obviously, in all of those 
law enforcement functions, that there are certain unique things 
about immigration policy----
    Mr. Gowdy. Such as?
    Mr. Rosenblum. Such as that it is a transnational issue 
that has both domestic and international implications.
    Mr. Gowdy. Counterfeiting does, too.
    Mr. Rosenblum. And so, with an example like counterfeiting, 
the Federal Government sets the parameters for cooperation 
between the Feds and the locals. And so what Congress has 
done----
    Mr. Gowdy. So you would support State and local working 
with the Feds and immigration?
    Mr. Rosenblum. Well, what Congress has done is to create 
the 287(g) mechanism where the Feds----
    Mr. Gowdy. All we are trying to do is canonize that in the 
SAFE Act.
    So you would support that?
    Mr. Rosenblum. I will confess that I am not sure exactly 
how the SAFE Act would differ from 287(g). 287(g) creates a 
mechanism where the Federal Government stipulates certain ways 
in which States and locals are allowed to cooperate.
    So that seems to me to be something that DHS has, for the 
most part, chosen not to take advantage of because they judge 
that it doesn't serve their interests in how they want to 
manage immigration enforcement.
    Mr. Gowdy. Well, I am almost out of time and then I am 
going to either go to the gentleman from Texas or Florida or 
Idaho.
    One thing that has vexed me in the time that I have been in 
Congress--and perhaps you can help me--is this notion of 
sanctuary cities where you trust localities to not enforce 
Federal law, but, yet, you don't trust that same locality to 
actually enforce Federal law.
    Can you help me reconcile how you can support the existence 
of sanctuary cities but, at the same time, not support those 
very same local law enforcement officers participating in 
enforcement?
    Mr. Rosenblum. I think the way I would answer that is that 
certain States and localities, counties and cities have 
determined that their cooperation with DHS doesn't serve their 
constituents' interest because it creates a wedge between----
    Mr. Gowdy. What do they do with the supremacy clause?
    Mr. Rosenblum. They have chosen to limit the way they 
interact and to not honor those voluntary detainer requests 
because they----
    Mr. Gowdy. That sounds like nullification to me. And I am 
from a State with a little experience in that.
    Mr. Rosenblum. That is true.
    So this is not an area where I have legal expertise. But I 
would say that, you know, the great majority of localities have 
cooperated with ICE detainer requests.
    Mr. Gowdy. I get that.
    But some have not and they are heralded as sanctuary 
cities, like that is some title to be aspired to. And I don't 
know what your next Law Review article's going to be, but I 
would love it if somebody could explain to me why you trust 
local actors to decide not to enforce Federal law, but you 
don't trust those same local actors to actually enforce Federal 
law.
    Mr. Rosenblum. Well, there is other jurisdictions that are 
enforcing by that definition.
    Mr. Gowdy. The gentleman from Texas, Mr. Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman, for yielding.
    Dr. Rosenblum, earlier today I heard your testimony 
essentially with respect to the Obama administration's 
assertion that it is prosecuting felons, not families. You 
supported that and essentially said that the statistics bear 
out that there seems to be a focus on quality over quantity.
    Did I hear that accurately?
    Mr. Rosenblum. Yes, sir.
    Mr. Ratcliffe. Okay. Again, as a former Federal prosecutor, 
I certainly agree with prioritizing and focusing on the worst 
of the worst.
    But would you agree with me that we can't do that and 
forsake the rest of the prosecutions with respect to the 
illegal population?
    Mr. Rosenblum. Yes.
    Mr. Ratcliffe. Okay. So in the hundreds of cases that I 
have had the chance to prosecute in this area, I have had the 
opportunity to work with Immigration and Customs Enforcement on 
all of them. So I was struck by something that was said by 
President Obama's former head of ICE last June, John Sandweg.
    Do you know Mr. Sandweg?
    Mr. Rosenblum. I know of him.
    Mr. Ratcliffe. All right. Well, what he said was--in an 
interview last June was--and I am quoting--"If you are a run-
of-the-mill immigrant here illegally, your odds of getting 
deported are close to zero.''
    Would you agree with that statement?
    Mr. Rosenblum. The odds are very low for people who are in 
the U.S. and have not been convicted of a crime and have not 
previously been removed.
    Mr. Ratcliffe. Okay. And do you think that that is a proper 
approach by this Administration?
    Mr. Rosenblum. I think that it is a policy decision that 
the Administration has made to prioritize the border, 
criminals, reinstatements of removal, and ICE fugitives.
    I think that, as a matter of setting priorities, those are 
longstanding priorities. There is a long legislative history of 
Congress also identifying those goals.
    Certainly I think probably most people on the panel would 
say, if we are going to pick the first four categories we 
should go after, those would all be on the list. So perhaps 
what we disagree about is how hard they should work also on 
people who fall outside of those categories.
    But I agree with the idea of prioritizing criminals, 
border-crossers, reinstatements, and fugitives. I think that is 
noncontroversial.
    Mr. Ratcliffe. Well, I would agree with that.
    But you agree with me that having close to zero percent 
chance of being deported if you are in this country illegally 
is not the standard that we should aspire to.
    Mr. Rosenblum. I think that a close-to-zero chance is 
certainly less of a deterrent than a larger chance.
    Mr. Ratcliffe. Thank you.
    I yield back, Mr. Chairman.
    Mr. Gowdy. Thank the gentleman from Texas.
    The Chair will now recognize the gentleman from Idaho, Mr. 
Labrador.
    Mr. Labrador. Thank you, Mr. Chairman.
    Professor Ting, somebody earlier asked you about the 
difference between the Family Fairness Act and the current 
actions of this President, but they didn't give you an 
opportunity to really explain that.
    Mr. Ting. Yes. I noticed that, too.
    Mr. Labrador. Could you explain for us exactly how they are 
different. Because I agree with you that they are two different 
actions. And in one, in my opinion, the President was working 
with Congress.
    Mr. Ting. Absolutely.
    Mr. Labrador. And in this instance, the President is 
working against the wishes of Congress, which is actually 
against the wishes of the American people.
    Mr. Ting. Yes. I have some interest in Family Fairness 
because I was working in the George H.W. Bush administration. 
So I remember it well.
    And there was a feeling on the part of many people that 
some of the issues that needed to be addressed were not 
addressed by the Immigration Reform and Control Act of 1986, 
and particularly some sort of relief had to be provided for the 
spouses and minor children of the newly amnestied illegal--
formerly illegal immigrants.
    And President Bush was engaged in active negotiations with 
the Congress trying to get that done,and he did announce Family 
Fairness as an interim measure. But he did so within months 
after that, the Immigration Act of 1990 was agreed to and 
became law.
    Mr. Labrador. And he did it with the consent and the 
cooperation of Congress. Is that not what happened?
    Mr. Ting. Absolutely. And I cited in my written testimony 
that, you know, the Supreme Court has said in the steel seizure 
case, Youngstown Sheet & Tube, that the President is at the 
peak of his authority when he acts with the explicit or 
implicit support of Congress and he is at the very nadir of his 
authority when he acts in defiance of Congress, as President 
Truman did when he seized the steel mills.
    Mr. Labrador. And Obama's actions are in defiance of what 
Congress was expressly stated. Isn't that correct?
    Mr. Ting. Yes. I think that that is unquestionably clear.
    Mr. Labrador. Okay. Dr. Rosenblum, you seem to agree that 
the President has prosecutorial discretion and you seem to be 
okay with his actions. Is that correct?
    Mr. Rosenblum. I mean, I am not an attorney. But certainly 
there are smart lawyers who have made that case.
    Mr. Labrador. Okay. Do you think it would be okay for a 
U.S. Attorney, for example, to decide that he or she is not 
going to prosecute marijuana laws in their district?
    Mr. Rosenblum. Again, I mean, I am a little reluctant to 
really wade into this because it is a little outside my area of 
expertise.
    But what I understand is that these are policy decisions 
that are made, you know, more by the executive branch than by 
an ICE officer or a U.S. Attorney.
    Mr. Labrador. Okay. Professor Ting, I actually think the 
President exceeded his authority. But let's assume for a second 
that he did everything within his authority.
    Would a U.S. Attorney be qualified to make a decision about 
prosecuting marijuana laws in his or her district? Do you think 
they have that prosecutorial discretion?
    Mr. Ting. I think it would be a breach of someone's 
authority to set out whole categories of laws that they are not 
going to enforce.
    One can imagine people that disagree with the Clean Air 
laws saying ``I am not going to enforce those laws.''
    Mr. Labrador. Or the tax laws.
    Mr. Ting. Or the tax laws.
    ``I believe in a 10 percent flat tax, and if people are 
defying the tax laws, as long as they pay 10 percent, I am 
going to say exercise prosecutorial discretion.''
    Mr. Labrador. But let's assume for a second--you and I 
agree that the President exceeded his authority--there is no 
question that there is prosecutorial discretion, but that he 
abused his discretion.
    What would you think the American people would say if this 
President decided not to enforce marijuana laws and then, in 
fact, gave people licenses to purchase marijuana illegally?
    Mr. Ting. Yes. That is the difference.
    You know, people were asking the sheriff, ``Well, if you 
have a serious crime underway and you had a traffic accident, 
how do you allocate your resources?"
    Well, okay. You deal with the serious crime, but you don't 
say, ``From here on forward, we are not going to deal with 
traffic accidents anymore"--right?--"That is no longer"----
    Mr. Labrador. Not only that, but you are going to tell 
people that you are going to give them a license to have 
traffic accidents, to actually violate the law.
    Mr. Ting. We are going to give benefits to people that 
commit traffic accidents.
    Mr. Labrador. Exactly.
    And then, if you commit one of those violations, we are 
actually going to give you more benefits to encourage further 
violations of the law.
    Isn't that the difference that we are talking about?
    Mr. Ting. I think that is the apt analogy to what is 
happening.
    Mr. Labrador. All right. Thank you very much.
    I yield back my time.
    Mr. Gowdy. I thank the gentleman from Idaho.
    The Chair will now recognize the gentleman from Florida, 
Mr. DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Professor Ting, we have had disputes--you mentioned the 
steel seizure case, Andrew Jackson, Lincoln, about the scope of 
presidential authority.
    Is there any example in U.S. History that you are aware of 
where a president took an action that he had previously 
repeatedly and definitively said he did not have the 
constitutional authority to do?
    Mr. Ting. There may be. But I am not aware of it.
    Mr. DeSantis. I am not aware of it either.
    Now, you pointed out immigration laws are meant to protect 
the jobs and wages of American workers.
    The President--the media doesn't like to report this--he is 
not just deferring deportation, he is affirmatively conferring 
5 million work permits on people who are in the country 
illegally.
    That will have an upward pressure or a downward pressure on 
the wages of American workers, in your opinion?
    Mr. Ting. I think it is clearly going to have a downward 
pressure.
    Mr. DeSantis. And here is what really gets me. Illegal 
immigrants are exempt from Obamacare's employer mandate. So it 
is not just that there will be that downward pressure. An 
employer would have about a $3,000 hiring preference over an 
illegal immigrant because they can go above 50 or even just 
providing the normal Obamacare benefit.
    So that is going to exacerbate that downward pressure; will 
it not?
    Mr. Ting. Absolutely. Once these illegal aliens, these 5 
million, get their work authorization, it becomes illegal to 
discriminate against them in hiring.
    But, as you point out, there are actually affirmative 
reasons why you would want to discriminate against the American 
citizen, who is subject to the Affordable Care Act 
responsibilities, whereas this group of individuals would be 
exempt.
    So we are setting up a situation where the American worker 
is affirmatively disadvantaged.
    Mr. DeSantis. Ms. Vaughan, when the President did the mini-
amnesty in 2012, DACA, he had previously said he couldn't do 
that. Then he did it.
    That had a negative effect on legal immigrants, isn't that 
correct, that their wait times increased? U.S. citizens were 
trying to bring over a foreign spouse, had to wait longer.
    Their families were separated because the President was 
diverting resources away from legal immigrants to the illegals. 
Correct?
    Ms. Vaughan. Yes. That is right. That has been shown in the 
processing time.
    Mr. DeSantis. And isn't it the case that the plan for 
this--now,we are in a fight to stop this--but the President's 
plan here is to use the fees that legal immigrants pay for 
their applications and he is going to divert those fees to 
administer his executive amnesty program. Correct?
    Ms. Vaughan. That would have to be the case because of the 
way the fees are set and what they are charging for the 
deferred action benefit, the work permit.
    They are not charging enough to cover what it actually 
costs. So they have two choices, either take fees that are paid 
by legal immigrants or cut corners on how the processing is 
done and refrain from hiring, for example, fraud investigators 
and other----
    Mr. DeSantis. And I guess they will do both there.
    But if there was a negative impact on legal immigrants with 
a much smaller DACA program, you start talking about 5 million, 
that is going to have a significant impact on the ability of 
American citizens and legal immigrants to access the 
immigration system.
    Isn't that the obvious deduction?
    Ms. Vaughan. That is the inevitable outcome.
    Mr. DeSantis. The criminal convictions--I mean, we have 
36,000 illegal immigrants who were convicted of crimes in 
fiscal year 2013. And those are not just ticky-tack crimes.
    Isn't it true that that includes homicide convictions?
    Ms. Vaughan. There were 169 homicide convictions.
    Mr. DeSantis. Sexual assaults, including child molestation?
    Ms. Vaughan. Yes.
    Mr. DeSantis. Kidnapping?
    Ms. Vaughan. Yes.
    Mr. DeSantis. Aggravated assault.
    So these are people who clearly represent a danger to 
society. DHS releases them into the community. And guess what 
we know already.
    Right now, of those 36,000, 1,000 have already been 
convicted of new crimes. And those crimes include rape, child 
molestation, assault with a deadly weapon. So these are 
Americans citizens who have been harmed because their 
Government has failed them.
    And isn't it true, with Jeh Johnson's enforcement criteria 
and the tiers, they have actually relegated some sexual 
offenses to Tier 2? They say that those are significant 
misdemeanors. Isn't that correct?
    Ms. Vaughan. Yes.
    Mr. DeSantis. So if they are already releasing people 
convicted of homicide, the fact that they put you in Tier 2, I 
think you can almost bet your bottom dollar those people are 
going to be released.
    And that is a problem because you may have an offense, a 
sexual offense against a child, let's say, that qualifies, 
under their view, as a significant misdemeanor. But there may 
be reasons why that charge had to be brought. Maybe you have a 
child victim. You don't want to put that victim and the family 
through a criminal trial.
    So you may be willing to plead somebody to, say, a year, 
make them register as a sex offender, because that is just the 
path that would be best for the child. That does not make the 
offender any less dangerous. And so DHS is saying, ``Well, if 
you get a good plea bargain, we are going to put you back in.'' 
And we know that these people are likely to re-offend.
    So this is a huge scandal. We are going to be doing this on 
the Oversight Committee and really digging deep because--I 
don't care--Republican, Democrat, this is just completely and 
utterly unacceptable.
    And I yield back.
    Mr. Gowdy. I thank the gentleman from Florida.
    This concludes today's hearing.
    But I want to thank you on behalf of all of us for your 
expertise, your collegiality toward one another and with the 
panel, your cordiality toward one another and with the panel. 
And so we want to say thank you.
    I don't know if it is the standard witness fee that I think 
Members of Congress who today. So you are giving us your 
expertise, and we are grateful to you for that.
    Without objection, all members will have 5 legislative days 
to submit additional questions for the witnesses or additional 
materials for the record.
    With that, the hearing is adjourned.
    [Whereupon, at 2:51 p.m., the Committee was adjourned.]
    
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>
</pre></body></html>
